<html>
<title> - REAUTHORIZATION OF THE MAGNUSON-STEVENS FISHERY CONSERVATION AND MANAGEMENT ACT</title>
<body><pre>[Senate Hearing 109-1122]
[From the U.S. Government Printing Office]



                                                       S. Hrg. 109-1122
 
   REAUTHORIZATION OF THE MAGNUSON-STEVENS FISHERY CONSERVATION AND 
                             MANAGEMENT ACT

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                           NOVEMBER 16, 2005

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation




                  U.S. GOVERNMENT PRINTING OFFICE
65-004                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="4e293e210e2d3b3d3a262b223e602d212360">[email&#160;protected]</a>  

       0SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                     TED STEVENS, Alaska, Chairman
JOHN McCAIN, Arizona                 DANIEL K. INOUYE, Hawaii, Co-
CONRAD BURNS, Montana                    Chairman
TRENT LOTT, Mississippi              JOHN D. ROCKEFELLER IV, West 
KAY BAILEY HUTCHISON, Texas              Virginia
OLYMPIA J. SNOWE, Maine              JOHN F. KERRY, Massachusetts
GORDON H. SMITH, Oregon              BYRON L. DORGAN, North Dakota
JOHN ENSIGN, Nevada                  BARBARA BOXER, California
GEORGE ALLEN, Virginia               BILL NELSON, Florida
JOHN E. SUNUNU, New Hampshire        MARIA CANTWELL, Washington
JIM DeMINT, South Carolina           FRANK R. LAUTENBERG, New Jersey
DAVID VITTER, Louisiana              E. BENJAMIN NELSON, Nebraska
                                     MARK PRYOR, Arkansas
             Lisa J. Sutherland, Republican Staff Director
        Christine Drager Kurth, Republican Deputy Staff Director
                David Russell, Republican Chief Counsel
   Margaret L. Cummisky, Democratic Staff Director and Chief Counsel
   Samuel E. Whitehorn, Democratic Deputy Staff Director and General 
                                Counsel
             Lila Harper Helms, Democratic Policy Director


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on November 16, 2005................................     1
Statement of Senator Cantwell....................................    27
Statement of Senator Inouye......................................    25
    Prepared statement...........................................     2
Statement of Senator Lautenberg..................................    26
Statement of Senator Lott........................................     2
Statement of Senator Smith.......................................    29
Statement of Senator Snowe.......................................    31
    Prepared statement...........................................    31
Statement of Senator Stevens.....................................     1

                               Witnesses

Connaughton, James L., Chairman, President's Council on 
  Environmental Quality..........................................     3
    Prepared statement...........................................     5
Dunnigan, John H., Director, Office of Sustainable Fisheries, 
  National Oceanic and Atmospheric Administration (NOAA).........     7
    Prepared statement...........................................     8
Lapointe, George D., Commissioner, Department of Marine 
  Resources, State of Maine......................................    11
    Prepared statement...........................................    13
Watkins, Admiral James D., U.S. Navy (Retired); Chairman, U.S. 
  Commission on Ocean Policy.....................................    17
    Prepared statement...........................................    19
    Prepared statement of Hon. Leon E. Panetta, Chairman, Pew 
      Oceans Commission, submitted by Admiral James D. Watkins...    23

                                Appendix

Sisk, John, prepared statement on behalf of Stosh Anderson, 
  Chairman, MSA 2005 Working Group: Working Fishermen Dedicated 
  to Sustainable Fisheries and Prosperous Coastal Communities....    49


                    REAUTHORIZATION OF THE MAGNUSON-
                      STEVENS FISHERY CONSERVATION
                           AND MANAGEMENT ACT

                              ----------                              


                      WEDNESDAY, NOVEMBER 16, 2005

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10 a.m. in room 
SD-562, Dirksen Senate Office Building, Hon. Ted Stevens, 
Chairman of the Committee, presiding.

            OPENING STATEMENT OF HON. TED STEVENS, 
                    U.S. SENATOR FROM ALASKA

    The Chairman. I think our Co-Chairman will be along in just 
a minute, so we will open the hearing. I thank you all for 
being here today.
    This is a Full Committee hearing to discuss the 
Reauthorization of the Magnuson-Stevens Fishery Conservation 
and Management Act and specifically the legislation to 
reauthorize the Act that Senator Inouye and I introduced 
yesterday. The bill is co-sponsored by Senators Snowe, 
Cantwell, Vitter, and Boxer. This Act was last reauthorized in 
1996 with the passage of the Sustainable Fisheries Act. The 
authorization of appropriations for the acts expired in 1999. 
Our bill will authorize the Magnuson-Stevens Act through 2012 
and provides some adjustments to the law to improve national 
compliance with the Act.
    Our bill represents, I feel, a true bipartisan effort based 
on the recommendations from the Administration, regional 
councils, states, industry, including fishermen, processors, 
and suppliers, environmental groups, recreational interests, 
members of the U.S. Commission on Ocean Policy, and the Pew 
Ocean Commission, and numerous listening sessions this 
Committee held over the last year, which several members 
attended.
    Over the August recess, Senator Inouye and I put out a 
draft for comment and review and received over 700 comments 
that our staff has worked on and, through that, evaluated many 
items for possible inclusion in the bill.
    Over the last year, we received a considerable amount of 
information and generated a great deal of dialogue on the 
reauthorization of this Act. The intent of this bill is to 
build on some of the sound policies enacted in the Sustainable 
Fisheries Act and to continue the successes we have achieved 
under these acts to provide for the sustainability of the 
resources.
    The Committee will hear testimony from a panel of witnesses 
representing the Administration, ocean policy experts, and a 
State representative: James Connaughton, Chairman of the White 
House Council on Environmental Quality; John Dunnigan, Director 
of the Office of Sustainable Fisheries, the National Oceanic 
and Atmospheric Administration; Admiral James Watkins, retired, 
Chairman of the U.S. Commission on Ocean Policy; and George 
Lapointe, Commissioner of Resources for the State of Maine.
    We want to thank the witnesses for being willing to come 
speak with us today.
    I see we have been joined by Senator Lott.
    This is, I think, a most important step in continuing the 
policies that were set down in the original Magnuson Act.
    Senator Lott, do you have an opening statement?

                 STATEMENT OF HON. TRENT LOTT, 
                 U.S. SENATOR FROM MISSISSIPPI

    Senator Lott. Mr. Chairman, let me listen to the panel. I 
might have statements and questions after that. Thank you very 
much, though, for having this hearing.
    The Chairman. Thank you. We will reserve a place in the 
record for the Co-Chairman's opening statement.
    [The prepared statement of Senator Inouye follows:]

 Prepared Statement of Hon. Daniel K. Inouye, U.S. Senator from Hawaii
    I would like to thank our Chairman for holding this hearing today 
on the Magnuson-Stevens Fishery Conservation and Management 
Reauthorization Act of 2005. I am extremely proud to be an original co-
sponsor of this bill, and recognize I am the latest in a long line of 
bipartisan partners on fisheries issues with Senator Stevens.
    This notable history began when our former Chairman from 
Washington, Senator Warren Magnuson, worked side-by-side with Senator 
Stevens to Americanize our fisheries in 1976. In fact, the Chairman's 
work has been so closely in step with Senator Magnuson's legacy over 
the past 30 years, the Act was renamed the Magnuson-Stevens Act in 
1997, after enactment of the Sustainable Fisheries Act in 1996 which he 
co-authored with Senator Kerry.
    This bill is one of the most significant pieces of legislation this 
Committee will consider this Congress. The breadth and complexity of 
the issues we seek to address is significant. While we are justifiably 
proud of the legislation, we know that it can be fine tuned, so I thank 
this distinguished panel of witnesses for joining us today and for 
sharing their insight.
    Our Nation has always relied on the bounty of our oceans for 
sustenance and trade. This has not changed over the years, as certainly 
we in Hawaii are well aware. Our Nation's commercial and recreational 
fisheries currently bring in over $60 billion of direct revenue to our 
economy each year. In many regions of our country, fishing is not just 
the major industry, it is the only industry.
    Our fisheries importance to our Nation both economically and 
culturally is indisputable. They are a living resource and must be 
treated as such if they are to sustain communities today and remain 
viable for future generations. Our task therefore, as the title of the 
bill makes plain, is to both manage and conserve.
    As the U.S. Commission on Ocean Policy has already reported to us, 
the Magnuson-Stevens Act is a landmark statute that requires some 
strengthening but not a major overhaul. It is among the most 
conservation-minded national fisheries management laws in the world, 
but it is not perfect. The bill takes steps to improve the Act and make 
it both more effective and more responsive to community needs. The bill 
also takes steps toward exporting our management approaches 
internationally.
    One of the greatest threats to global fish stocks today is illegal, 
unreported, and unregulated fishing. Those who engage in this illegal 
activity--whether under national flag or as rogue agents--have no 
regard for the future consequences of their actions. This bill includes 
provisions to strengthen international fishery management and puts 
teeth into our efforts to end rogue fishing and wasteful bycatch. These 
provisions are based on successful measures used to combat high seas 
driftnets. They will not only help us sustain our shared resources, but 
also aid the U.S. fishing industry by leveling the playing field in 
terms of regulation and responsibility.
    For example, our Hawaiian longline fleet, which operates on the 
high seas, accounts for very little of the total Western Pacific tuna 
catch, yet it is the only officially recognized nation fishing on these 
stocks that is subject to conservation and management requirements to 
both conserve shared tuna stocks, and reduce bycatch of endangered sea 
turtles. Additionally, rogue, unregulated fleets are driving our bigeye 
tuna stocks down, and there is very little that our small fleet of 
fishermen can do to mitigate the impact. Nor should they be asked to. 
Our bill takes steps to ensure that they do not have to shoulder this 
burden alone.
    I am also happy to say that we have included a number of community 
based initiatives for the Pacific, including a provision to strengthen 
development of marine conservation plans in the Pacific insular areas 
that could potentially be included under foreign fishing agreements. We 
also establish a marine education program in the Western Pacific with 
the goal of increasing education, and training in marine resource 
issues, especially among indigenous Pacific islanders, Native Hawaiians 
and other underrepresented groups.
    This Committee's members represent a variety of coastal communities 
and interests. I believe that we should be able to pass a bill 
reflecting this diversity and experience. Engaging all of these 
stakeholders in a productive process is no easy task, and I would like 
to commend my friend for his leadership and willingness to work in a 
bipartisan manner. I look to him and his considerable experience in 
this area to help us shepherd a bipartisan bill out of Committee and 
toward final passage.

    The Chairman. I would be pleased to call first on Mr. 
Connaughton.
    Senator Lott. Mr. Chairman, I do just want to add that I 
appreciate very much the work you have been doing on this 
important legislation and that you have been willing to work 
with me and those of us from the Gulf region to get some 
important language in there. I just want that to be on the 
public record, as well as my private expressions of 
appreciation that I always give to you. Thank you.
    The Chairman. Thank you very much.
    Jim?

   STATEMENT OF JAMES L. CONNAUGHTON, CHAIRMAN, PRESIDENT'S 
                COUNCIL ON ENVIRONMENTAL QUALITY

    Mr. Connaughton. Thank you, Mr. Chairman, Senator Lott. I 
appreciate the opportunity to appear before the Committee today 
to discuss reauthorization of the Magnuson-Stevens Fishery 
Conservation and Management Act. Mr. Chairman, it is a great 
pleasure to be here with you again and to talk about an act 
that bears your name and your legacy.
    President Bush is committed to providing the American 
people with healthy fisheries and an economically vibrant 
fishing industry, a source of both nutritious food and 
recreational enjoyment.
    The Administration looks forward to working with the 
Congress to ensure the long-term sustainable use of our marine 
resources. It is a very important objective. We recently had 
the U.S. Department of Agriculture and FDA tell Americans that 
they, for their good health, should increase their consumption 
of seafood. At current levels of consumption, which is about 7 
million metric tons a year, the FDA and USDA have called for us 
to double that to 14 million tons a year. And yet, the current 
U.S. supply of fish to the U.S. economy is about 1 million tons 
a year and the rest is from imports. If we want to meet the 
health goals of America for the long-lasting good care of 
American citizens, further improvement and discipline in our 
fisheries process is essential.
    Now, to achieve this objective, the fundamental target 
needs to be to rebuild our fish stocks and end overfishing once 
and for all.
    Let me put this effort into its broader context. At the 
President's direction, the Administration is working with every 
level of government and the private sector to advance the next 
generation of ocean policy. This effort flows from the 2001 
appointment of the U.S. Commission on Ocean Policy chaired by 
Admiral Watkins, who is with us here today. The Commission 
began their work and, over the course of 3 years, produced a 
report that provided to the Congress and to the Administration 
and the states 212 recommendations in September of 2004. 
President Bush responded to this report 3 months later with the 
release of the U.S. Ocean Action Plan, which incorporates key 
recommendations of the Commission.
    Our most important priority under the plan this year is the 
improved stewardship of our fisheries resources. On September 
19, 2005, President Bush submitted to the Congress his vision 
for the reauthorization of the Magnuson-Stevens Act which 
contains essential elements to implement the President's Ocean 
Action Plan. Mr. Chairman, I commend you and your bipartisan 
co-sponsors for your introduction yesterday of Congress' 
proposals.
    For centuries our national fisheries have been a source of 
prosperity and abundance. U.S. commercial and recreational 
fisheries contribute $60 billion to the economy annually, and 
they employ more than 500,000 Americans. The Magnuson-Stevens 
Act, signed over 30 years ago, has clearly stood the test of 
time and has made great strides in improving the management of 
our fisheries resources, most particularly with the amendments 
in 1996.
    Now, the Administration has proposed that we can build on 
this strength and harness the changing landscape of both 
consumer need and the industry, as well as our expanding 
scientific capability and knowledge. Commercial and 
recreational fisheries serve an important role in our country 
and our leadership on this issue here at home will provide an 
important model internationally.
    I would like to highlight just a few of the most important 
features of the Administration's priorities which should be 
part of any final legislation. We have about 10 elements. I 
will highlight several.
    First, our proposal sets a hard deadline to end overfishing 
practices within 2 years, and it also incorporates stock life 
history into rebuilding requirements. We maintain our 
commitment to balancing conservation and use of fisheries 
resources and to continue to rely on scientists, fishermen, and 
expertise at the local level to guide fisheries management.
    Similar to the bill you introduced yesterday, Mr. Chairman, 
our proposal would specifically authorize the councils to use 
dedicated access privilege programs as proven, highly-effective 
market-based tools for fisheries management, while ensuring 
that the councils have the flexibility to tailor these programs 
to local circumstances. Under existing dedicated access 
privilege programs, commercial fishermen have ended the race-
to-fish. As a result, fishermen have benefitted from a 
significantly safer and more stable industry, decreased 
harvesting costs, improved compliance with catch limits, 
increased product quality, and as a result of all of that, 
increased profits. This proven mechanism provides an individual 
fisherman, cooperative, or community the exclusive privilege to 
a share of the total catch allowed. It is time that we 
replicate these successful management systems in regions across 
the country. Reauthorization of the Magnuson-Stevens Act is 
essential to achieving the greater use of these proven tools.
    Additionally, the NEPA analytical framework provides 
important benefits to our resource agencies, the councils, the 
fishing industry, and the general public, as we do fisheries 
management planning. However, it is essential that we do a 
better job of ensuring that the NEPA process is more timely 
and, hopefully, fully integrated with the fisheries management 
planning process so that we can achieve a much more efficient 
and well-informed outcome.
    The Administration's proposal also describes an ecosystem-
based approach to further ecologically sound resource 
management decisions. Our approach establishes broad policy 
direction and would give clear authority to the councils to 
design their approaches. Because fishery scientists and 
managers have advocated ecosystem approaches to fisheries 
management, NOAA and the councils are already beginning to 
integrate this approach into fisheries management, and more can 
be done. But we also need to be sure that the ecosystem 
approach does not just become another process for delay, 
inaction, and conflict. We really need to find a path in which 
ecosystem thinking can actually accelerate speed and produce 
sound decisions without creating process impediments.
    Mr. Chairman, working together, we do have the opportunity 
to improve fisheries productivity and benefits for today's 
fishermen while also ensuring and enhancing our fisheries' 
continued availability for future generations. We have enjoyed 
the collaboration that we have had over the last year and the 
Administration continues to stand ready to provide the 
Committee all of its resources and technical skills to shape a 
bill that will have lasting consequence and stand proudly on 
the shoulders of the work, Mr. Chairman, that you have done 
before.
    Thank you very much.
    [The prepared statement of Mr. Connaughton follows:]

         Prepared Statement of James L. Connaughton, Chairman, 
              President's Council on Environmental Quality

    Mr. Chairman and members of the Committee, I appreciate the 
opportunity to appear before you today to discuss reauthorization of 
the Magnuson-Stevens Fishery Conservation and Management Act. I commend 
you for your work on this important piece of legislation. The President 
is committed to providing the American people with healthy fisheries 
and an economically vibrant fishing industry, a source of both 
nutritious food and recreational enjoyment. Last week, NOAA announced 
that seafood consumption in America rose for the third straight year in 
2004. As Americans demand more fish and shellfish, we need to become 
increasingly better at managing our fisheries. The Administration looks 
forward to working with Congress to ensure the long-term sustainable 
use of our marine resources. To achieve this objective, we must rebuild 
our fish stocks and end overfishing once and for all.
    Let me first put this effort into its broader context. At the 
President's direction, the Administration is working with every level 
of government and the private sector to advance the next generation of 
ocean policy. This effort requires more effective management and 
conservation of our ocean and coastal resources through innovative 
science, management, and policy initiatives. In 2001, the President and 
Congress initiated a thorough examination of issues affecting our ocean 
and coastal waters through the U.S. Commission on Ocean Policy chaired 
by Admiral Watkins. The Commission began work in September 2001, and 
pursuant to its legislative mandate, completed their report with 212 
recommendations in September 2004. President Bush responded to this 
report 3 months later, on December 17, 2004, with the release of the 
U.S. Ocean Action Plan, which incorporates key recommendations of the 
Commission.
    One of our most important priorities under the Action Plan is 
improved stewardship of our fisheries resources. On September 19, 2005, 
the President submitted to Congress his vision for the reauthorization 
of the Magnuson Stevens Act which contains essential elements to 
implement the President's Ocean Action Plan.
    For centuries our national fisheries have been sources of 
prosperity and abundance. U.S. commercial and recreational fisheries 
contribute $60 billion to the economy annually, and they employ more 
than 500,000 people. The Magnuson-Stevens Act, signed over 30 years 
ago, has clearly stood the test of time. The creation of a partnership 
between the Federal Government and the Regional Fisheries Management 
Councils is the law's innovation for improved fisheries management. 
This partnership allows the expertise of scientists, fishermen and 
other stakeholders at the local level to guide fisheries management. 
The Administration has proposed reauthorization that will build on this 
strength and harness the changing landscape of the industry and our 
expanding scientific capability and knowledge. Commercial and 
recreational fisheries serve an important role in our country and our 
leadership on this issue here at home will provide an important model 
internationally.
    I would like to highlight the most important features of the 
Administration's proposal, which should be part of any final 
legislation. Our proposal sets a hard deadline to end overfishing 
practices within 2 years. It also incorporates stock life history into 
rebuilding requirements. We maintain our commitment to balancing 
conservation and use of fisheries resources and continue to rely on 
scientists, fisherman and expertise at the local level to guide 
fisheries management.
    Our proposal specifically authorizes the Councils to use dedicated 
access privilege programs as proven highly effective market-based tools 
for fisheries management, while ensuring that the Councils have the 
flexibility to tailor these programs. Under existing dedicated access 
privilege programs, commercial fishermen have ended the ``race-to-
fish.'' As a result, fishermen have benefited from a significantly 
safer and more stable industry, decreased harvesting costs, increased 
product quality, and increased profits. This proven mechanism provides 
an individual fisherman, cooperative, or community the exclusive 
privilege to a share of the total catch allowed. It is time that we 
replicate these successful management systems in other regions. 
Reauthorization of the Magnuson-Stevens Act is essential to achieving 
greater use of these proven tools, which harness the power of markets 
to achieve sustainable, profitable fisheries.
    Additionally the NEPA analytical framework provides important 
benefits to our resource agencies, the Councils, the fishing industry, 
and the general public. It is essential that we ensure that the NEPA 
process is more timely and better integrated with the fisheries 
management plan process to better inform local planning and 
infrastructure decisions.
    The Administration's proposal includes an ecosystem-based approach 
to assist further ecologically sound resource management decisions. Our 
proposal establishes broad policy direction and gives clear authority 
to the Councils to design ecosystem-based approaches. Because fisheries 
scientists and managers have advocated ecosystem approaches to 
fisheries management, NOAA and the Councils have already begun 
integrating this approach into fisheries management and more can be 
done.
    Working together, we have the opportunity to improve fisheries 
productivity and benefits for today's fishermen while also ensuring and 
enhancing our fisheries continued availability for future generations. 
We look forward to continued work with your Committee to develop a 
final bill that can best meet the objectives for the vibrant 
sustainability of our Nation's living marine resources. Thank you, Mr. 
Chairman for the opportunity to address your Committee today. I would 
be happy to answer questions.

    The Chairman. Thank you very much.
    Our next witness is Mr. Jack Dunnigan, Director of the 
Office of Sustainable Fisheries at NOAA. Mr. Dunnigan.

       STATEMENT OF JOHN H. DUNNIGAN, DIRECTOR, OFFICE OF

          SUSTAINABLE FISHERIES, NATIONAL OCEANIC AND

               ATMOSPHERIC ADMINISTRATION (NOAA)

    Mr. Dunnigan. Yes, thank you. Good morning, Mr. Chairman, 
Mr. Co-Chairman, members of the Committee. I am Jack Dunnigan. 
I work for NOAA and I am the Director of the Office of 
Sustainable Fisheries. And on behalf of the Department of 
Commerce, I would like to thank the Committee for the 
opportunity today to present our views concerning the 
reauthorization and the improvement of the Magnuson-Stevens 
Act.
    Mr. Chairman, I would like, at the outset, to thank the 
Committee and its fine staff for the leadership that you have 
shown in bringing us to the position we are in today on this 
important issue. This is about the sixth one of these 
reauthorizations that I have personally been through, and I 
must say that it has been characterized by a unique sense of 
collaboration and collegiality. Your listening sessions, your 
sharing widely with the public of your ideas as you developed 
them, and your openness have really helped to create an 
atmosphere where these issues could be discussed productively. 
And we find that there is really much in common between the 
Administration's draft bill and S. 2012, and in many ways what 
we see happening is a converging of our shared vision on the 
problems that we are trying to address and the best ways to do 
so.
    We also think that we should not forget the regional 
fisheries management councils. You know, Mr. Chairman, that 
NOAA and the Department are strong supporters of the council 
system. We have mutually engaged with the councils in an open 
dialogue as we developed our views, and we believe that we are 
fairly close in our positions on most major issues.
    Mr. Chairman, the Sustainable Fisheries Act contained many 
key provisions that emphasized the conservation mission of our 
marine fisheries management programs, and overall, the 
Department believes that the last decade has largely been a 
record of significant improvement. We have developed rebuilding 
plans for nearly all of our overfished fisheries, and we have 
seen a reduction in the overall overfishing levels, as well as 
in the numbers of stocks that are overfished.
    We now have a national plan for the reduction of bycatch, 
and we are seeing overall bycatch levels being reduced, as well 
as a reduction in the level of bycatch mortality.
    We have witnessed the advent of new market-based approaches 
toward fisheries management. Whether you call them DAPs or IFQs 
or limited-access privileges or something else, the fact is 
that we are reducing overcapacity and improving the economic 
performance of many of our Nation's most important commercial 
fisheries.
    Taking note of all of this, the Department believes that 
there are some improvements that can be made in the policies 
and the Administration of the Magnuson-Stevens Act, and we are 
very pleased that many of these views are reflected in S. 2012.
    For example, we believe and our experience has shown that 
market-based approaches to fisheries conservation and 
management are effective in addressing many of the problems 
that are inherent and apparent in open-access fisheries. We 
have proposed measures to expand the types of access programs 
that the councils could use, and we are convinced that this 
will improve the economic performance of the Nation's 
commercial fisheries.
    The Administration's bill gives a high priority to the use 
of improved and more reliable scientific information in the 
fishery management process based upon an upgraded and a well-
grounded peer review process for our important fishery science.
    Mr. Chairman, our experience over the last decade has 
convinced us that some changes are necessary to the Act's 
provisions relative to overfishing and rebuilding overfished 
stocks. It is important to require a more timely and definitive 
action to end overfishing. We also believe that rebuilding 
provisions should move away from somewhat arbitrary and wishful 
scenarios for rebuilding fish stocks and be more practically 
tied to the realistic conditions surrounding the life histories 
of overfished stocks.
    The last point that I would like to make, Mr. Chairman, is 
relative to international provisions. If you look at the 
President's Ocean Action Plan, you see a commitment of the 
United States stepping forward as a leader in the international 
community in developing sound practices for fishery 
conservation and management. The Administration's bill does not 
contain many provisions that specifically address this, but we 
note that S. 2012 does. And without commenting specifically on 
any of those, because we have only recently had a chance to 
look at them, we think it is a good sign that the Senate has 
stepped forward here and demonstrated some leadership in the 
international area, and we look forward as an administration to 
working with you to develop and elaborate these ideas.
    Mr. Chairman, the Administration's draft bill and the 
Committee's bill have been developed in an effective and close 
collaboration. Each would build upon the successes of recent 
years and expand the vision that Congress advanced almost 10 
years ago. The Department and NOAA look forward to continuing 
to work with you and with your staff to best meet our shared 
objectives for stewardship of the Nation's living marine 
resources in the coming years.
    Thank you very much, Mr. Chairman. Mr. Co-Chairman and I 
look forward to being able to try to answer questions.
    [The prepared statement of Mr. Dunnigan follows:]

Prepared Statement of John H. Dunnigan, Director, Office of Sustainable 
   Fisheries, National Oceanic and Atmospheric Administration (NOAA)

    Good morning, Mr. Chairman and members of the Committee.
    My name is John H. Dunnigan. I am the Director of the Office of 
Sustainable Fisheries, National Marine Fisheries Service (NMFS), 
National Oceanic and Atmospheric Administration (NOAA), within the 
Department of Commerce. Thank you for the opportunity to testify at 
today's hearing on the reauthorization of the Magnuson-Stevens Fishery 
Conservation and Management Act (Magnuson-Stevens Act). I want to 
commend you, Mr. Chairman, and the Committee for the work you have done 
over the past several months on this reauthorization. The incorporation 
of input from previous hearings, formal listening sessions, and 
countless communications with constituent groups is obvious. I am 
pleased to report that the Administration and Congress seem to be 
moving in the same direction on several of the most important Magnuson-
Stevens Act issues. These points of full or near agreement suggest that 
the Administration and Congress share a common vision on which issues 
must be addressed to effectively update the Magnuson-Stevens Act.
The 1996 Sustainable Fisheries Act
    To understand where we are today, we need to look at the progress 
we have made in implementing the 1996 Sustainable Fisheries Act (SFA) 
amendments to the Magnuson-Stevens Act. The SFA ushered in a major 
expansion of fisheries management policy, leading all of us--Regional 
Fishery Management Councils (Councils), commercial and recreational 
users, and NOAA's National Marine Fisheries Service (NMFS)--to manage 
our marine resources for the long term.
    Most significantly, the SFA included several key new provisions, 
including strengthening requirements relating to managing fisheries to 
avoid overfishing, developing rebuilding plans for overfished stocks, 
reducing bycatch, identifying and minimizing adverse impacts of fishing 
operations on essential fish habitat, and taking into account the 
importance of fishery resources to fishing communities. In the years 
following passage of the SFA, the Councils and NMFS have made a major 
and sustained effort to implement these changes. We have faced many 
challenges, but our marine fisheries are healthier and managed more 
effectively than they were a decade ago.
    I would like to outline some of our key accomplishments:

  <bullet> We have developed rebuilding plans for nearly all overfished 
        stocks, and we are reducing both overfishing and the number of 
        overfished stocks.

  <bullet> To address the ongoing concern with bycatch, we now have a 
        national bycatch plan that is continuing to reduce overall 
        bycatch as well as bycatch mortality.

  <bullet> Using several dedicated access privilege management 
        strategies--e.g., individual fishing quotas, community 
        development quotas, and fishing cooperatives--we are reducing 
        overcapacity in many of our most important commercial 
        fisheries. These initiatives are models for dedicated access 
        privilege programs across the country.

    The SFA presented many challenges, and we have gone a long way 
toward successfully meeting those challenges. Now, almost a decade 
later, it is time to revisit the Magnuson-Stevens Act and use what we 
have learned to improve the management of our fishery resources.
Major Themes in Magnuson-Stevens Act Reauthorization
    Our focus on the Magnuson-Stevens Act takes place within the larger 
context of future ocean policy and governance. In December 2004, the 
White House issued the U.S. Ocean Action Plan. In light of the 
discussions surrounding the U.S. Ocean Action Plan, we have been 
working on Magnuson-Stevens Act reauthorization and considering new 
issues. We believe that our proposal addresses the most difficult 
issues raised in Magnuson-Stevens Act reauthorization discussions over 
the past several years. I would like to outline a few issues that we 
believe are critical to reauthorization:
    Dedicated Access Privileges: A dedicated access privilege (DAP) 
provides an individual fisherman, cooperative, or community the 
exclusive privilege of harvesting a quantity of fish (generally, a 
percent share of a harvest quota). Market-based approaches to fishery 
management, including DAPs, can help solve many problems inherent in 
open-access fisheries. Since 1990, NMFS and the Councils have 
implemented DAPs in eight fisheries that together have annual ex-vessel 
values of over $600 million. In these fisheries, commercial fishermen 
have enjoyed increased profits, decreased costs of gear and labor, and 
a safer and more stable industry. For example, in 2001, due to the 
elimination of the open-access ``race-to-fish,'' the Alaska pollock 
catcher/processor cooperative fleet was able to increase product 
recovery efficiency so much that the amount of marketable product per 
pound of fish caught increased by 49 percent compared to 1998, the last 
year of the race-to-fish. DAPs with transferable quotas allow for a 
reduction in overcapacity and increased profitability for participating 
fishermen and communities. Fishermen can change their fishing practices 
to reduce bycatch without concern that they will lose target catch to 
competitors.
    Amending the Magnuson-Stevens Act to authorize a broader range of 
DAP programs with appropriate controls and guidelines will provide 
fishery managers more options to improve fishery management and enhance 
the economic performance of the Nation's fisheries. Toward that end, we 
have included in our Magnuson-Stevens Act reauthorization proposal a 
detailed provision on DAPs, which includes: (1) individual fishing 
quotas, (2) community quotas, (3) fishing cooperatives and (4) area-
based quotas. All four types of DAPs would authorize the granting of 
exclusive harvest privileges to individuals or to groups, and include 
market mechanisms for the sale and/or lease of these privileges. The 
Administration supports the greater use of these market-based 
management systems to improve the efficiency and sustainability of the 
harvest of federally managed living marine resources.
    Scientific Support for Fisheries Management: The Administration 
gives high priority to the use of improved and more reliable scientific 
information in the fishery management process. With that end in mind, 
the U.S. Ocean Action Plan pledged to develop guidelines and procedures 
on the use of science in fisheries management. One key way to ensure 
the quality of scientific information is through peer review of this 
information. The Administration's bill recognizes the need to 
strengthen the quality of and the public's confidence in the science 
used by the Councils in crafting management decisions by bolstering the 
peer review of this science.
    Rebuilding: A decade of experience has convinced us that changes 
are needed in the Magnuson-Stevens Act rebuilding provisions in section 
304. In our view, it is critically important that we revise the 
Magnuson-Stevens Act to require more timely and definitive actions to 
end overfishing, and to amend the rebuilding time frames to better 
conform to the life history of the overfished stocks.
    Data Collection and Access to Economic and Social Information: NMFS 
and the Councils will need more and different kinds of information--
including biological, physical, and socioeconomic data--to improve the 
management process, make progress toward ecosystem approaches to 
management, and better anticipate the effects of management measures on 
commercial and recreational sectors. We propose that the Secretary 
implement an information collection program to obtain essential 
economic data. Improved access to economic and social information will 
also support efforts to quantitatively consider the effects of 
management measures on processors and communities.
    Registration of Saltwater Recreational Fishermen: Complete 
enumeration of this important user group and subsequent collection of 
angler information for fisheries management is hampered because the 
existing state-based system of fishing licenses is incomplete. In the 
U.S. Ocean Action Plan, the Administration stated that we will work to 
harmonize data on state-managed recreational fishing licenses and 
develop a proposal to complete the state-based saltwater recreational 
fishing license network or propose appropriate alternatives to improve 
fisheries management. Better data on recreational fisheries are vital 
in an increasing number of federally managed fisheries. A national 
saltwater angler registry would ensure that all anglers are represented 
and accounted for. Knowing who fishes and where they fish will advance 
our understanding of fisheries, help improve our scientific 
assessments, and lead to better management of the resource. The 
Administration's bill requires NOAA to support and promote the 
controlled exchange of data for those states that have a system in 
place for gathering the information that scientists and managers need, 
and to help those states wishing to develop such a system in the 
future.
    Compliance with the Act: Fishery management regulations require 
industry compliance to be effective. Compliance is achieved through 
voluntary behavior; effective fisheries law enforcement; and creating 
effective financial and penal sanctions. For particularly serious 
violations of the Magnuson-Stevens Act, NOAA must be able to utilize 
sanctions that have significant consequences in order to deter 
potential violators. When fisheries regulations are ignored, it is not 
only the resource that pays a price, but also the fishermen who obey 
the regulations. Increasing the level of fines and penalties, as well 
as expanding the types of offenses which can be criminalized under the 
Magnuson-Stevens Act will help to ensure that sanctions are not simply 
accepted by violators as the cost of doing business. Enhanced 
enforcement authority is also consistent with the highly public and 
active role the United States has taken in promoting international 
actions to combat illegal, unreported, and unregulated (IUU) fishing in 
both domestic waters and on the high seas. The Administration's 
Magnuson-Stevens reauthorization proposal recognizes this need for 
enhanced enforcement authority and proposes several important changes 
to existing law to accomplish it.
    Compliance with NEPA: In recent years, NMFS and the Councils have 
worked diligently to ensure compliance with the numerous regulatory 
assessments that must accompany fisheries management actions. Chief 
among these mandatory assessments is a formal review of management 
actions under the National Environmental Policy Act (NEPA), which 
requires an analysis of the impacts of Federal actions on the human 
environment and a consideration of alternatives to proposed actions. 
Although there are some overlapping procedural and analytical 
requirements in the Magnuson-Stevens Act and NEPA, we have already done 
a great deal of work through regulatory streamlining to ensure NEPA 
compliance in a timely manner. However, in response to concerns raised 
repeatedly by the Councils, further work is needed to improve the 
efficiency and timeliness of the procedures governing compliance with 
NEPA. The Administration's bill outlines procedures to address this 
concern.
    Fisheries Ecosystems: For several years, fisheries experts, 
conservation organizations, marine scientists, and various studies have 
advocated ecosystem approaches to fisheries (EAF), whereby management 
programs explicitly account for and address all living marine resources 
within a specific area/ecosystem, including all sources of 
environmental stress and factors influencing the ecosystem, not just 
fishing operations. An EAF requires a highly collaborative management 
process, and the more scientific information that is collected and 
analyzed, the more incremental progress can be made in creating a 
comprehensive plan.
    We have already been including elements of an EAF in a number of 
``conventional'' Fishery Management Plans that have been substantially 
modified and expanded in recent years to incorporate ecosystem 
principles. Most recently several federally managed fisheries, most 
notably in the Western Pacific, North Pacific, and South Atlantic have 
adopted an EAF approach. For example, we have a Coral Reef Ecosystem 
Fishery Management Plan in the Western Pacific.
    However, the Administration supports continued progress toward EAF. 
The immediate question is how best to modify current fishery management 
practices to further EAF. It is critical that reauthorization of the 
Magnuson-Stevens Act provide the Councils overall direction and, 
equally important, the tools they will need to make meaningful progress 
toward EAF. The Administration's proposal emphasizes the Councils' 
discretionary authority rather than mandating actions that in some 
cases may not be necessary or may exceed the current capabilities of 
ecosystem science.
Conclusion
    Our recommendations for this reauthorization would build on current 
successes and expand the vision Congress advanced 10 years ago. We 
would like to work with you to develop a bill that can best meet the 
objectives for the stewardship of our Nation's living marine resources. 
Thank you, Mr. Chairman. I would be happy to answer any questions.

    The Chairman. Thank you very much.
    Our next witness is the Commissioner from the State of 
Maine, Mr. George Lapointe.

 STATEMENT OF GEORGE D. LAPOINTE, COMMISSIONER, DEPARTMENT OF 
                MARINE RESOURCES, STATE OF MAINE

    Mr. Lapointe. Thank you, Mr. Chairman. Senator Stevens, 
Senator Inouye, and members of the Committee, my name is George 
Lapointe and I am the Commissioner of Marine Resources for the 
State of Maine.
    I want to thank you for the opportunity to provide a state 
perspective on reauthorization of the Magnuson-Stevens Act. In 
Maine, marine resources are central to the culture, economy, 
and character of our state and we view this pending 
reauthorization as an opportunity to ensure healthy fishery 
resources and fishing communities for generations to come.
    My testimony focuses on what Maine considers to be the most 
critical provisions of the bill, including the importance of 
promoting effective State-Federal partnerships and achieving 
sustainable fisheries. I want to echo what Mr. Connaughton and 
Jack Dunnigan have said about building on past successes and 
working with your committee and working with NOAA fisheries in 
improving the Magnuson Act. I have some specific comments that 
I will go through.
    The proposed language in the bill on cumulative impacts 
requires the inclusion of economic and social data and 
assessment methods in evaluating impacts on fishing 
communities, importantly including the cumulative economic and 
social impacts of management measures. I believe that taking a 
longer-term view of the impacts on coastal communities would 
reveal if particular geographic areas, sectors, or gear types 
have been disadvantaged by successive plans and will plainly 
show the impacts of management on our Nation's fishing 
communities.
    The language on impact mitigation provides an important 
next step in the fisheries management, lessening the concern 
that we manage with little regard for the real consequences of 
management actions on the participants in fisheries.
    The proposed language on annual catch-limits requires the 
councils to adopt annual catch-limits for each of their managed 
fisheries based on the recommendations of science and 
statistical committees. The problem we have had with the 
fisheries in New England exceeding the target total allowable 
catch must be acknowledged, and I appreciate the need to 
achieve greater accountability in the future.
    New England has sought to avoid TACs in the groundfish 
fishery ever since they were tried unsuccessfully in the 1970s 
and early 1980s. And as you have heard, we are concerned about 
some of the following impacts of TAC management.
    TACs result in managing for the weakest stock components, 
the past history of TACs resulting in overfishing, market 
disruption, and high-grading, safety issues, and a concern that 
TAC management migrates inherently toward dedicated access 
privileges.
    Having said this, I understand there is a lot of discussion 
about different language that balances management 
accountability and the flexibility to address circumstances 
that arise in particular fisheries and that these discussions 
are ongoing. I am committed to working with your Committee and 
with NOAA fisheries in coming up with the right language to 
improve fisheries management results while providing some 
flexibility in how to achieve these results. I know we have a 
lot of work to do on this.
    The provisions on limited-access privileges I believe 
contain safeguards that Maine and other states have been 
seeking. These are the referendum process, a referendum on the 
program implementation in New England and the Gulf of Mexico, 
and the proposed language provides the framework for regional 
choice, which is very important. And the language on referendum 
makes sure that a move toward such a program is done very 
deliberately with the support of those most impacted by the 
actions.
    The proposed language on the environmental review process 
would add discretionary provisions to the fishery management 
plans or would add the option to establish a process for 
complying with NEPA and require the Secretary to revise and 
update agency procedures to achieve compliance with NEPA. Most 
people I have talked to are seeking an environmental review 
process that does not result in redundant bureaucratic 
processes, which is what we seem to have now. The language 
contained in the draft bill addresses this issue.
    There is language in the bill on joint enforcement 
agreements and access to information that recognizes and 
strengthens the necessary and successful partnership between 
NOAA Fisheries, the Coast Guard, and the state marine fisheries 
enforcement bureaus. Maine wholeheartedly supports these 
provisions which provide for cooperation and sharing, which are 
always important and are absolutely necessary in the lean 
budget times we all face.
    Maine agrees with the continued emphasis on bycatch 
reduction, as Mr. Dunnigan has talked about and through the 
Bycatch Reduction Engineering Program.
    On recreational fisheries, complete and accurate 
information on recreational fishing activity is currently 
missing from State and Federal fisheries management. The 
language contained in the bill recognizes current and future 
State licensing programs as being critical to a registry 
program being useful to both State and Federal management 
processes. There are some concerns we have about the specific 
language, and I would suggest or hope that the Committee, NOAA 
Fisheries, and states can get together to refine this process 
because the issue of recreational fisheries information is a 
critical next step.
    Maine strongly supports adding a new section to the 
Magnuson-Stevens Act to formalize the ongoing cooperative 
research and management programs that have been generated over 
the course of the last decade, recognizing the impact of 
research participation on catch history and streamlining the 
experimental fisheries permit process. All these actions are 
critical in obtaining new information at a time when our 
management process becomes more data-hungry with things like 
ecosystem management. And lean budgets require innovative ways 
of getting new data. We simply have to take better advantage of 
these opportunities and I think this language allows that to 
occur.
    In closing, I would like to say I appreciate the 
Committee's decision to include a representative of a State 
fisheries agency on the panel today. It illustrates your 
recognition that the states have a critical role to play as the 
primary managers of inshore fisheries and as full partners in 
the Federal fisheries management arena. I believe our Nation's 
fisheries will be improved by strengthening this role in a way 
that builds on and does not diminish the work of the regional 
fishery management councils. I hope my comments have been 
useful today and I would be happy to answer any questions when 
the time comes.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Lapointe follows:]

        Prepared Statement of George D. Lapointe, Commissioner, 
             Department of Marine Resources, State of Maine

    Senator Stevens, Senator Inouye, and members of the Committee on 
Commerce, Science, and Transportation, my name is George Lapointe, and 
I am Commissioner of Marine Resources for the State of Maine. The 
Department is established under Maine law for the purpose of conserving 
and developing marine resources, as well as promoting and developing 
Maine's coastal fishing industries. Thank you for the opportunity to 
provide a state perspective on the reauthorization of the Magnuson-
Stevens Fishery Conservation and Management Act (MSFCMA). I would like 
to say on behalf of Governor Baldacci that Maine appreciates the focus 
that this committee is bringing to the sustainable management of our 
Nation's living marine resources. In Maine, marine resources are 
central to the culture, economy, and character of our state. Their 
sustainable management is of the utmost concern to us, and we view this 
pending reauthorization as an opportunity to ensure healthy fishery 
resources and healthy fishing communities for generations to come.
    The draft bill (dated November 7, 2005) extensively amends the 
Magnuson-Stevens Act. I have tried to focus my testimony on what Maine 
considers to be some of the most critical provisions, and conclude with 
some thoughts on the importance of promoting effective State-Federal 
partnerships in achieving sustainable fisheries. Topics are addressed 
in the order in which they appear in the draft bill.
    Cumulative Impacts--The proposed language amends National Standard 
8 to require the inclusion of economic and social data and assessment 
methods in evaluating impacts on fishing communities. It also requires 
that fisheries management plans analyze the likely effects, including 
the cumulative economic and social impacts, of the conservation and 
management measures. Maine has long advocated for cumulative impacts to 
be taken into account. The cumulative impacts on our fleet and 
shoreside infrastructure have been particularly severe. Over the past 
decade, Maine has lost more than half of the groundfish vessels 
previously homeported in the state. Taking a longer-term view of the 
impacts on coastal communities would reveal to managers if a particular 
geographic region, sector, gear type, etc., has been repeatedly 
disadvantaged by successive plans, and will plainly show the impacts of 
management on our Nation's fishing communities.
    Further, the proposed language would also require that the 
Fisheries Management Plans provide possible mitigation measures to 
address any such impacts on the regulated communities. The language on 
impact mitigation provides an important next step in fisheries 
management, lessening the concern that we manage with little regard to 
the real consequences of management actions on participants in the 
fisheries.
    Annual Catch Limits--The proposed language would require that 
Councils adopt annual catch limits for each of their managed fisheries, 
based on the recommendations of the Science and Statistical Committees. 
If the annual catch limit is exceeded, the excess must be deducted from 
the following year's annual catch limit. Management measures must be 
established such that catch would be at or below optimum yield, unless 
fully justified by the Council.
    The problems that we've had with the fisheries in New England in 
exceeding the target total allowable catch (TAC) must be acknowledged, 
and I fully appreciate the need to achieve greater accountability in 
the future. However, what is essentially a version of a hard TAC is not 
necessarily the answer for all fisheries. Hard TACs are but one of a 
range of possible fishery management tools, and their use is more 
suited to some types of fisheries than others. In a multi-species 
fishery like New England's, hard TACs result in managing to the weakest 
stock. Once that TAC is reached, the entire fishery must be shut down. 
As a result, the biological goal may be achieved, but at significant 
social and economic cost.
    New England has sought to avoid TACs ever since they were tried 
unsuccessfully in the late 1970s and early 1980s. Our experience has 
been that they failed to prevent overfishing, disrupted the market, and 
resulted in high-grading. It took several years to move away from this 
failed experiment into the Days-at-Sea (DAS) program. While DAS has 
certainly also had its problems, target TACs and DAS have stabilized 
the cod stocks in New England, while hard TAC/ITQ programs have failed 
to prevent a decline in cod fisheries in other parts of the North 
Atlantic.
    The negative market impacts of hard TACs are well documented. They 
often create ``derby''-style fisheries, wherein, in an effort by each 
individual fisherman to obtain a portion of the TAC, the entire TAC is 
caught in a highly compressed timeframe. Last summer's yellowtail 
flounder fishery is an example of this, where the TAC was caught 
quickly, and a low price was paid for the overabundance of fish in the 
market place. Because of their tendency to cause disruptions in the 
marketplace, hard TACs also tend to eliminate all but the largest 
(import capable) processors.
    Hard TACs can endanger fishermen. Again, in an effort to secure a 
portion of the TAC, fishermen are much more likely fish under dangerous 
weather conditions, work continuously for long periods without rest, 
and possibly overload their vessels, greatly increasing the probability 
of loss of life or serious injury. In addition, hard TACs tend to lead 
to fishing strategies that favor big, mobile boats that can move 
between areas, which smaller boats are unable to do, and may result in 
discards and high-grading.
    The problems created by hard TACs in other fisheries have often 
forced a shift to rights based management systems, such as Individual 
Transferable Quotas (ITQs). Historically, New England in general and 
Maine in particular, has expressed long standing concerns about the 
impacts of ITQ management on the traditional nature of our fleet and 
coastal economies. Some New England fisheries have been pursued for 
nearly 400 years; they are the lifeblood of our coastal communities. 
Other input controls on fishing effort can be just as effective as an 
output control like a TAC in rebuilding a stock, if they are properly 
designed. We would suggest alternate language to what is present in the 
bill such as ``establish TACs or target TACs with adequate measures as 
approved by the SSC in the council of jurisdiction.''
    It is my understanding that some fishermen from New England 
recently visited Congressional offices to further discuss the balance 
between management accountability and the flexibility to address 
circumstances that arise in particular fisheries, and that these 
discussions are beginning to yield results vis-a-vis this balance. I've 
not yet examined the proposed legislative language that came out of 
these discussions, but am committed to working with you, interested 
industry members, and conservation interests in coming up with the 
right language to improve fisheries management results while providing 
some flexibility in how to achieve these results.
Limited Access Privileges
    One of the most important reasons to move forward with the 
reauthorization of the Magnuson-Stevens Act is the current absence of 
any guidance in law for the creation of Limited Access Privileges in 
those regions where there is interest in this type of management 
system. As reauthorization has been discussed over the past few years, 
Maine has been in the somewhat difficult position of providing input on 
standards for a system that the majority of people in the state hope 
will never be used to manage our fisheries. There is a fundamental 
belief that the implementation of Limited Access Privileges, or ITQs as 
they were previously known, would mean the end of the traditional 
character of the New England fleet. Under the traditional ITQ 
structure, corporate consolidation of the fisheries seemed an 
inevitable result.
    For these reasons, Maine has long argued for strong ``safe-guard'' 
provisions that would ensure that Limited Access Privilege systems are 
only implemented in those regions in which they are appropriate and 
desired. The proposed language covers what we consider the most 
critical of these provisions, including the development of policies to 
foster the sustained participation of small, owner-operated vessels, 
preventing privilege holders from acquiring an excessive share, 
providing for new entry, setting specific standards for the program, 
and including a formal, detailed review after 5 years, and every 5 
years thereafter. We support the concept that the specifics of each of 
these decisions are best made at the level of the Regional Fisheries 
Management Councils, so that they can be appropriately tailored to the 
specific fishery.
    We also support the provision to require that at least 50 percent 
of the permit holders in a fishery petition the Regional Fisheries 
Management Council to develop a plan, before the Council could proceed 
with this option. In particular, we are glad to see that all permit 
holders, not just those deemed ``active'' will have a voice in whether 
or not a plan is developed. In addition, we appreciate the provision 
that is specific to New England and the Gulf of Mexico which requires 
the approval of two-thirds of the eligible permit holders in order to 
implement a limited access privilege plan. This concept of a ``double-
referendum'' wherein permit holders have a say both before a plan is 
developed and before it is implemented, has been one way that Maine has 
advocated to ensure that any ITQ program is entered into very 
deliberately, with strong support from the individuals most impacted.
    Because the implementation of Amendment 13 has continued to be so 
difficult for many of Maine's fishermen, there has been some very early 
discussion of identifying more palatable options that the traditional 
``Days at Sea'' approach. While this conversation is only in the most 
preliminary stages, I am glad to see that the proposed language 
contemplates a variety of arrangements for the entities that may 
participate in a Limited Access Privilege program, including for 
example, fishing communities or regional fishery associations.
    The language in the draft bill contains language that requires all 
fish harvested under a Limited Access Privilege system be processed in 
U.S. waters or on U.S. soil. I am concerned about the precedent 
contained in this language. Maine ships much of its fish to Canada for 
processing. If applied broadly to Maine fisheries, it would seriously 
disrupt the marketing and distribution systems for a number of our 
fisheries, most notably lobster.
Environmental Review Process
    The proposed changes would add to the Discretionary Provisions of 
Fishery Management Plans the option to establish a process for 
complying with the National Environmental Policy Act (NEPA), and 
require the Secretary to revise and update agency procedures to achieve 
compliance with NEPA. Our assumption is that the underlying goal is to 
avoid duplication of effort and improve efficiency, while still 
considering the effects of the proposed actions on the marine 
environment, the cumulative effects of the proposed action, and 
reasonable alternatives. Provided that all of the NEPA requirements are 
met, we would support this change. This action is consistent with 
providing a balance between the NEPA procedural requirements, and the 
need to be able to make timely and responsive changes to fisheries 
management measures.
    What most people involved in fisheries management are seeking is an 
environmental review process that doesn't result in redundant 
bureaucratic processes--which is what we seem to have now. The language 
contained in the draft bill addresses this issue.
Secretarial Action on State Groundfish Fishing
    Maine is well aware of the specific issue that led to this language 
being included in the draft bill. We appreciate the attempt to address 
this matter, in which a significant percentage of the total Gulf of 
Maine cod catch is being taken in Massachusetts State waters by 
individuals not holding Federal permits, but state licenses only. As 
this percentage of the catch has increased in recent years, concerns 
have been raised that this catch erodes the effectiveness of the 
Multispecies Management Plan. However, it seems that this problem 
should be addressed through state action on the part of Massachusetts 
working with the New England Fishery Management Council, and I hope 
that this provision won't be needed in the future.
Joint Enforcement Agreement
    Maine has been a successful partner in Joint Enforcement Agreements 
(JEA) for the past several years. Access to this program made it 
possible to obtain larger vessels that are capable of patrolling 
offshore in a way that we would otherwise be unable to do. For example, 
Maine has been able to patrol the EEZ for compliance with whale safe 
gear requirements in the lobster fishery. Prior to the JEA, we did not 
have the capacity to conduct such patrols safely. Similarly, we have 
also used JEA funding for effective enforcement of the ``Gray Zone,'' 
the disputed area between the U.S. and Canada. This program provides an 
important opportunity for state enforcement agencies to assist their 
Federal partners in addressing enforcement priorities and maintaining 
an on the water presence. It would be very beneficial for all the 
coastal states to have the Cooperative Enforcement Agreement program 
formally authorized, and appropriation levels set.
Access to Certain Information
    Much like the Joint Enforcement Agreement language, this proposed 
language points to the logical partnership between State and Federal 
agencies in sharing information and resources to achieve effective 
fisheries management. The intent of this section is to allow state 
enforcement employees access to data, such as VMS reports, to aid in 
the enforcement of fisheries regulations. The State of Maine strongly 
supports this change.
Bycatch Reduction Engineering Program
    Maine agrees that the problem of bycatch must be addressed in a 
practical, effective way. We support a regionally based, conservation 
engineering approach to this issue, as proposed by the bill.
Recreational Fisheries Information
    Complete and accurate information on recreational fishing activity 
is currently missing from state and Federal fisheries management. 
However, we all know that recreational fishing can have significant 
impacts on fish stocks, and better information is needed to improve 
stock assessments and fine-tune management measures. One need look no 
further than the current situation with summer flounder and scup in the 
mid-Atlantic states to illustrate the need for better recreational 
data. The creation of an angler data base for each of the eight 
fisheries management regions would improve data collection. It seems to 
be the intent of the proposed legislation to exempt those states with 
programs in place that meet the requirements of this section. We would 
like to ensure that this is a clear indication of the primacy of the 
state programs, and that a Federal program will only be established in 
the absence of a state program. In addition, we would hope that this 
would not be construed to limit a state's right to develop a licensing 
or registration program in the future.
Cooperative Research and Management Program
    Maine strongly supports adding a new section to the MSFCMA to 
formalize ongoing cooperative research and management, and to provide 
for the authorization of continued funding. Maine has a long history of 
working with its fishing industry on gear research to reduce bycatch in 
the northern shrimp and whiting fisheries. Most recently, Maine 
scientists and fishermen have been active participants in cooperative 
research through the NMFS Cooperative Research Partners Initiative and 
the Northeast Consortium. The Maine-New Hampshire Inshore Trawl Survey 
is an excellent example of scientists and fishermen working together to 
collect data to improve the management of our coastal fisheries. We 
strongly believe in the value that such activity adds to the management 
process for all parties involved.
    The role specified for the Councils in identifying research 
priorities is important in that it will ensure that the research that 
is conducted has a direct link to management needs, and will inform the 
development of future management measures.
    In the past, a serious disincentive to participating in 
collaborative research was the potential that it might negatively 
impact the participant by lowering their catch history, or their 
expended days-at-sea, which may in turn limit their future 
participation in the fishery. This bill would require the Secretary to 
establish guidelines to prevent this from happening. Finally, we 
support the direction provided to promulgate regulations to create an 
expedited process for issuing experimental fisheries permits.
Herring Study
    This bill singles out Atlantic herring as the focus of a 
cooperative research program in the Northwest Atlantic, authorizing $2 
million/year for 3 years. This species certainly warrants a concerted 
research effort, as it is one of the most biologically and economically 
important fish species in the western Atlantic. Herring are oceanic 
plankton-feeding fish that occur in large schools, inhabiting coastal 
and continental shelf waters from Labrador to Cape Hatteras. With an 
estimated complex-wide biomass of 1.8 million metric tons, herring 
provide a significant forage base for other fish species, marine 
mammals, and birds, as well as supporting the second largest commercial 
fishery on the east coast. In addition to the direct economic 
contribution of herring landings, this fishery supports a domestic 
value added industry (canned sardines and frozen whole fish) worth 
approximately $50 million, and the North Atlantic lobster fishery 
estimated at $260 million. Studying the impacts of fishery practices on 
this keystone species will also assist in the move toward more 
ecosystem-based management of fisheries, something in which we all have 
an interest.
    In closing, I would just like to say again that I appreciate the 
Committee's decision to include a representative of a state-level 
fisheries agency on the panel today. It illustrates your recognition 
that the states have a critical role to play as the primary managers of 
the inshore fisheries and as full partners in the Federal fisheries 
arena. I believe that our Nation's fisheries will be improved by 
strengthening this role, in a way that builds on, and doesn't diminish, 
the work of the Regional Fishery Management Councils. I hope that my 
comments have been useful to you in moving forward the Magnuson-Stevens 
Act Reauthorization.

    The Chairman. Thank you, Commissioner.
    Our next witness is Admiral Watkins who has been the 
Chairman of the U.S. Commission on Ocean Policy.

  STATEMENT OF ADMIRAL JAMES D. WATKINS, U.S. NAVY (RETIRED); 
           CHAIRMAN, U.S. COMMISSION ON OCEAN POLICY

    Admiral Watkins. Chairmen Stevens and Inouye and 
distinguished Members of the Committee, I am pleased to appear 
before you today in my capacity as the Chairman of the U.S. 
Commission on Ocean Policy to discuss legislation to 
reauthorize the Magnuson-Stevens Fishery Conservation and 
Management Act, which I will refer to as MSA in my brief 
comments.
    I request that my full written statement be submitted for 
the record, as well as that of the Chairman of the Pew Oceans 
Commission, Mr. Leon Panetta, who has asked me to do so. He is 
Co-Chair with me on what we have called our Joint Ocean 
Commission Initiative, one I will touch on briefly later.
    I would like to begin by thanking the Chairmen for their 
solicitation of the views of the U.S. Commission on Ocean 
Policy during development of this legislation, also noting that 
members of both the U.S. and Pew Commissions collaborated in 
this effort.
    The U.S. Commission on Ocean Policy addressed a broad array 
of issues, but few attracted the level of concern or interest 
that fisheries engendered. Our chapter on fisheries, entitled 
``Achieving Sustainable Fisheries,'' is twice as long and 
contains twice the number of recommendations as most other 
chapters in the report. The Commission worked long and hard on 
fisheries-related issues and believes that its recommendations 
are balanced and reflect the best interest of the Nation.
    Mr. Chairman, what the Commission is recommending is, in 
essence, the codification of the process that has worked so 
successfully in the North Pacific Fisheries Management Council. 
You are justified in your pride in this Council and its 
conservative management approach which has served the region, 
its resources, and our Nation well.
    As Chairman of the U.S. Commission, it is also particularly 
rewarding to see the influence of the Commission's report on 
the legislation under consideration today. I commend the 
Chairman and sponsors of the bill for inclusion of so many 
provisions that are responsive, in whole or in part, to 
recommendations made by our Commission.
    These include: provisions mandating the science and 
statistical committees recommend acceptable biological catch 
levels to their councils; establishment of a national 
cooperative research and monitoring program; a call to 
establish a recreational fishing license program; establishment 
of a bycatch reduction program; providing guidance on the 
establishment of limited access programs; and a system for 
states to enter into cooperative enforcement agreements with 
the Secretary of Commerce.
    As the Committee moves forward in its MSA deliberations, we 
believe that the legislation can be further strengthened by 
mandating that the fisheries management councils use the 
guidance provided by the SSCs; developing a mechanism for 
ensuring the qualification and impartiality of SSC members; 
including guidance requiring Governors to submit their slate of 
candidates that represent a broad cross section of the public; 
requiring the councils to establish and initiate a periodic 
scientific peer review process of information used by the SSCs; 
mandating the training of new council members; enhancing the 
provision on the role of the SSC by appointing SSC members 
whose qualifications are reviewed by an independent entity; and 
finally, enhancing the bycatch program by directing the 
Secretary to evaluate the effectiveness of the program after 2 
years.
    Full implementation of this collection of measures would 
represent an important step towards reinstilling confidence in 
the process by which fisheries science is collected, analyzed 
and used, reducing grounds for unnecessarily burdensome 
lawsuits and the diversion of scarce resources towards 
competing science.
    I must also emphasize that ecosystem-based management is an 
important theme in both the U.S. and Pew Commission reports and 
feel strongly that MSA reauthorization should include 
statements that encourage fisheries management transition 
toward an ecosystem-based management approach. Once again, work 
being performed in the North Pacific by the Gulf of Alaska 
Ecosystem Monitoring and Research program, as well as the North 
Pacific Research Board, offer fine examples of regional 
ecosystem-based efforts that contribute significantly to the 
overall fisheries management process. I understand also that 
the Western Pacific Fisheries Management Council has 
tentatively approved four fisheries' ecosystem plans which 
supplant existing species-based fishery management plans.
    I will close by commending the Committee and its staff once 
again for its bipartisan approach to soliciting input from 
fisheries stakeholders and the effort to capture the 
Commission's recommendations. I fully support this bipartisan 
effort and have been collaborating with the Chairman of the Pew 
Commission, Leon Panetta, as part of a broader effort to move a 
national ocean agenda forward in Congress.
    The Chairmen and members of this Committee are clearly 
committed to building on the success of the 1996 amendments to 
the Act, and the current legislation reflects this commitment. 
Fishing is a dominant factor in the health of ocean and coastal 
ecosystems, and I believe that the Committee recognizes the 
leadership role that the industry must play in the transition 
toward an ecosystem-based approach, an approach that rely on 
good science and a process that enjoys confidence and support 
of the fishermen and the general public.
    I appreciate your collective effort to move forward in the 
implementation of the Commission's recommendations and I am 
prepared to respond to questions from Members of the Committee. 
Thank you, Mr. Chairman.
    [The prepared statements of Admiral Watkins and Mr. Panetta 
follow:]

 Prepared Statement of Admiral James D. Watkins, U.S. Navy (Retired); 
               Chairman, U.S. Commission on Ocean Policy

    Chairmen Stevens and Inouye and members of the Committee, I am 
pleased to appear before you today in my capacity as the Chairman of 
the U.S. Commission on Ocean Policy, to discuss legislation to 
reauthorize the Magnuson-Stevens Fishery Conservation and Management 
Act (MSA).
    Before I begin, I would like to thank the Chairmen for the 
invitation to the U.S. Commission on Ocean Policy and the Pew Oceans 
Commission to both share views in conference with your staff as they 
developed the MSA reauthorization legislation under consideration 
today. The conference was particularly helpful given the relative 
similarities in the fisheries recommendations of the two Commissions. 
As most of you are aware, Leon Panetta and I have been collaborating to 
help move an ocean agenda forward on Capitol Hill, in the 
Administration, and out in the states and regions. We have focused our 
efforts on those areas where our respective reports reached similar 
conclusions, such as the need for a better governance regime, greater 
focus on advancing ocean and coastal science, and, relevant to today's 
discussion, changes in fisheries management and science. These are 
issues that enjoy wide, bipartisan support and we are both dedicated to 
supporting the implementation of these recommendations.
    As authors and sponsors of the Oceans Act of 2000, I would like to 
thank you again for your vision and recognition of the need for a 
dramatic shift in the management of our Nation's oceans, coasts and 
Great Lakes. The Commission's final report, ``An Ocean Blueprint for 
the 21st Century,'' clearly identifies the multitude of ocean-related 
problems facing the Nation, and provides numerous recommendations for 
addressing these issues. It is particularly rewarding to see some of 
the Commission's fisheries-related recommendations incorporated into 
the MSA legislation currently under consideration by the Committee.
    The Commission addressed a broad array of issues, but few attracted 
the level of concern or interest that fisheries engendered. At every 
regional meeting around the Nation fisheries-related issues were 
discussed and debated. Over the course of 9 regional meetings there 
were 11 panels dedicated to living marine resource issues. And this 
does not include the extensive public and written comments presented to 
the Commission on fisheries issues. The inputs were invaluable and 
formed the basis for chapter 19, Achieving Sustainable Fisheries. With 
30 pages of text and 27 recommendations, Chapter 19 is twice as long 
and contains twice the number of recommendations as most other chapters 
in the report. Also worth noting is that many of the fisheries 
recommendations are relatively detailed, ranging from a call for better 
training for Council members, to suggesting various levels of peer 
review for fisheries science.
    I am providing these details because the Commission worked long and 
hard on fisheries related issues and believes that its recommendations 
are balanced and reflect the best interest of the Nation. These 
recommendations are not unfamiliar to the fishing community since many 
reflect the results of studies and analyses that have been released 
over the past decade. What is unique is having them all gathered into 
one set of coherent recommendations, providing senior decisionmakers, 
such as yourselves, the opportunity to understand the interplay among 
key concepts, such as improving the use of independent science in the 
decision-making process and enhancing training for Council members who 
must digest and apply this increasingly complex scientific information. 
As we note in our report, Mr. Chairman, what we are recommending is 
basically codifying the process that has worked so successfully in the 
North Pacific Fisheries Management Council. You are justified in your 
pride in this Council and its conservative management approach, which 
has served the region, and our Nation, so well.
    Before I use my remaining time to focus on a few key provisions, I 
want to inform the Committee that I have included an appendix to my 
testimony that contains a statement of principles that we believe 
should guide the MSA reauthorization process. These fisheries-related 
principles were developed as part of the collaborative effort of the 
two Commissions and reflect the broader, overarching guiding principles 
identified in the U.S. Commission's report.
    I would like to take the remaining time to highlight key provisions 
that we support and suggest some additions that we believe will help 
strengthen the legislation.

Strengthening Use of Independent Science in Management Decisions
    I want to commend the bill's authors and sponsors for the inclusion 
of provisions in the bill that mandate the Science and Statistical 
Committees (SSCs) to recommend acceptable biological catch levels or 
optimum yields to their Councils. This represents a significant step 
toward one of the key fishery recommendations of the Commission. 
However, I strongly recommend that the Committee further enhance this 
provision by also adopting the Commission's recommendation mandating 
that the Councils use the guidance provided by the SSCs.
    The Commissioners felt strongly that the Regional Fisheries 
Management Councils should be required to adhere to scientific advice 
provided by the SSCs. This requirement is based on information that a 
lack of adequate scientific information has not been the main culprit 
in most instances of overfishing. Rather, a 2002 National Research 
Council report concluded that the problem in many cases of overfishing 
was that the Regional Councils disregarded or downplayed valid 
scientific information when setting harvest guidelines. \1\ This 
problem is exacerbated by increasing pressure on fishery managers to 
maximize the total allowable catch instead of pursuing a more 
cautionary approach that factors in a conservation buffer in the event 
stock assessment information is found to be lacking or an unanticipated 
natural event causes elevated mortality within a fishery.
---------------------------------------------------------------------------
    \1\ National Research Council. Science and Its Role in the National 
Marine Fisheries Service. Washington, D.C.: National Academy Press, 
2002.
---------------------------------------------------------------------------
    Further exacerbating the problem of exceeding total allowable catch 
levels is the fact that neither NOAA Fisheries nor the Secretary of 
Commerce have adequately exercised their authority to prevent the 
Councils from taking such risky actions. Thus, the problem of 
overfishing cannot be isolated to one source, but is a result of 
systemic problems. Thus, we are suggesting establishment of a safeguard 
in the process by allowing the SSC to set a total allowable catch that 
cannot be exceeded. Unless another measure can be identified to avoid 
the capitulation of Council members and administration officials to 
economic and political pressure that result in overharvesting, a 
mandate for the Councils to follow SSC recommended catch levels is 
necessary. I strongly encourage the Committee to consider incorporating 
a more forceful provision requiring the Councils to use the guidance 
provided by the SSCs.
    The Commission also made recommendations to help ensure the 
qualification and impartiality of SSC members, as well as suggestions 
for strengthening and mandating a peer review process for fisheries 
information, which have not been fully incorporated into the 
legislation. Full implementation of this collection of measures would 
represent an important step toward reinstilling confidence in the 
process by which fisheries science is collected, analyzed and used, 
reducing grounds for unnecessarily burdensome lawsuits and the 
diversion of scarce resources toward competing science.

Ecosystem-based Management
    Ecosystem-based management is an important theme in both 
Commissions' reports and there is agreement that fisheries management 
should be informed and guided by long-term objectives set for both the 
fishery and the ecosystem. The goal is to move toward a management 
approach that considers linkages between living and nonliving 
components of the sea, land, atmosphere, balancing ecological needs 
with the health and vitality of human communities. While we are not 
looking for legislatively mandated standards for ecosystem-based 
management, MSA reauthorization offers an important opportunity to 
introduce ecosystem-based management as a central concept, especially 
as a mechanism to enhance collaboration among government agencies.
    The Commission recommended the development of regional ocean 
information systems whose objective would be to use the resources and 
expertise of governmental and nongovernmental entities to develop a 
better understanding of ecosystem processes within eco-regions. This 
information would be particularly useful in helping meet NEPA 
requirements, providing baseline information that would significantly 
contribute to the requirement of identifying cumulative impacts as part 
of environmental impact statements. Clearly, such a collaborative 
effort and the resultant information would be of great benefit to 
fishery managers and the Regional Councils. Again, I point to work 
being performed in the North Pacific through the Gulf of Alaska 
Ecosystem Monitoring and Research Program as well as the North Pacific 
Research Board, as examples of regional ecosystem-based efforts that 
contribute significantly to the overall fisheries management process. 
These are the types of initiatives we would like to see instituted 
throughout the Nation. Therefore, we recommend that the legislation 
incorporate language supporting a transition toward ecosystem-based 
management.

International
    The effective management and conservation of global marine species, 
and the enforcement of international treaties, require a combination of 
domestic, bilateral, regional, and international approaches. Although 
regulation of fisheries on the high seas is conducted within broad 
regions of the seas, the existing regional fishery organizations 
generally struggle in their effort to ensure compliance with the 
provisions of these agreements. They lack adequate financial resources 
or enforcement capabilities, allowing member states to opt out of 
individual management measures they dislike. This, I presume, is the 
basis for the international provisions contained in the bill. While I 
strongly support efforts to strengthen an international enforcement 
regime that will improve compliance with sound living marine resource 
management objectives, I am not the appropriate witness to comment on 
the specific provisions contained in the bill.
    However, I would like to note the Commission's report includes a 
number of recommendations aimed at addressing international issues, and 
I encourage the Committee to engage the appropriate officials from the 
Department of State, Commerce, and other relevant agencies, through the 
new White House Committee on Ocean Policy, in a review of these 
provisions. I also strongly encourage the Members of this Committee to 
communicate to Senate Majority Leader Frist its desire to have the 
United Nations Convention on Law of the Sea brought to the Senate floor 
for its approval early next year. U.S. accession to UNCLOS will greatly 
enhance our Nation's capacity to negotiate more forceful international 
regimes for the conservation of living marine resources as well as 
other important matters. Accession to UNCLOS is one of the top 
priorities of the U.S. Commission on Ocean Policy.

Other Provisions
    I commend the co-authors and sponsors of the bill for the inclusion 
of provisions that are responsive, in whole or in part, to 
recommendations made by the Commission including:

  <bullet> establishment of a national cooperative research and 
        monitoring program, an important element in the broader effort 
        to strengthen the quality of fisheries science;

  <bullet> a call to establish a recreational fishing license program, 
        allowing managers better information on this significant sector 
        of the fishing community;

  <bullet> establishment of a bycatch reduction program that addresses 
        the need to reduce and minimize mortality;

  <bullet> providing guidance on the establishment of limited access 
        programs, giving fisheries managers access to an effective 
        tool, where appropriate and supported by the community;

  <bullet> a system for states to enter into cooperative enforcement 
        agreements with the Secretary of Commerce;

    As the Committee moves forward in its MSA deliberations, we believe 
that the legislation can be further strengthened by:

  <bullet> including guidance requiring Governors to submit a slate of 
        candidates that represents a broad cross-section of the public 
        as nominees to the regional councils:

  <bullet> requiring the Councils to establish and initiate a periodic 
        peer review process to evaluate the scientific information used 
        by the SSCs;

  <bullet> mandating the training of new council members;

  <bullet> enhancing the provision on the role of the SSC by providing 
        the NOAA Administrator with the authority to appoint SSC 
        members that are nominated by the councils and whose 
        qualifications are reviewed by an independent entity; and

  <bullet> enhancing the bycatch program by directing the Secretary to 
        evaluate the effectiveness of the program after 2 years.

Closing
    I will close by commending the Committee and its staff for its 
bipartisan approach to soliciting input from fisheries stakeholders and 
the effort to capture the Commission's recommendations. The Chairmen 
and Members of this Committee are clearly committed to building on the 
success of the 1996 amendments to the Act, and the current legislation 
reflects this commitment. Fishing is a dominant factor in the health of 
ocean and coastal ecosystems and I believe that the Committee 
recognizes the leadership role the industry must play in the transition 
toward an ecosystem-based management approach, an approach that will 
rely on good science and a process that enjoys the confidence and 
support of the fishermen and the general public.
    I appreciate your collective effort to move forward in the 
implementation of the Commission's recommendations and I am prepared to 
respond to questions from Members of the Committee.

             Joint Ocean Commission Initiative--Appendix A
 Statement of Principles for Improving Fishery Management and Recovery 
                          (September 8, 2005)

    In 2003 and 2004, two major national commissions--the U.S. 
Commission on Ocean Policy and the Pew Oceans Commission--released 
reports that identified similar priorities and made complementary 
recommendations in a number of key areas of ocean policy. In late 2004, 
the Joint Ocean Commission Initiative formed to continue educating 
people about the work of the two Commissions and to pursue 
implementation of the recommendations made in their reports. The Joint 
Ocean Commission Initiative is guided by a ten-member Task Force (five 
from each Commission) that is led by Admiral James Watkins and Mr. Leon 
Panetta, Chairs of the U.S. Commission and the Pew Commission, 
respectively.
    The Joint Ocean Commission Initiative is committed to a set of 
fundamental principles that are articulated in both reports and that 
should ground all ocean policy reform. Many of these principles are 
reflected in the priorities for fishery management and recovery 
highlighted in both Commission reports, including: (1) shifting toward 
ecosystem-based management, (2) maintaining and enhancing ecosystem 
services, (3) strengthening the scientific process and basing decisions 
on science, (4) broadening public participation, (5) enhancing a 
stewardship ethic, and (6) ensuring adequate funding to support fishery 
management and recovery.
    Based on the findings and recommendations of the U.S. Commission on 
Ocean Policy and the Pew Oceans Commission, the Joint Ocean Commission 
Initiative believes the concepts listed below must guide and be 
incorporated into meaningful and effective fisheries legislation.

  <bullet> Ecosystem-based Management. Fisheries management should be 
        informed and guided by long-term objectives set for both the 
        fishery and the ecosystem, and thereby consider linkages 
        between different living and nonliving components of the sea, 
        land, atmosphere, and the health and vitality of human 
        communities.

  <bullet> Base Management on Independent Science. Strengthen the use 
        of science in management by requiring Regional Fishery 
        Management Councils to adhere to allowable biological 
        limitations determined by their Science and Statistical 
        Committee, setting catch limits at or below these limitations, 
        and establishing a consistent and independent peer review 
        process for the science used in decisionmaking.

  <bullet> Fallback Provisions. As an incentive toward timely and 
        responsible action to address overfishing and the degradation 
        of essential fish habitat, require fallback provisions to be 
        implemented when management plans are not developed within a 
        required time frame.

  <bullet> Dedicated Access Privileges. Authorize fishery managers to 
        use dedicated access privileges. Establish national guidelines 
        that allow for regional implementation that is consistent with 
        those guidelines.

  <bullet> Enforcement. Expand cooperative fisheries enforcement 
        programs between Federal and state enforcement entities. The 
        programs should clarify the role of the Coast Guard and should 
        emphasize joint training, stronger and more consistent 
        information sharing, and increased use of enforcement 
        technology such as Vessel Monitoring Systems.

  <bullet> Cooperative Research. Direct NOAA to create an expanded, 
        regionally-based collaborative research program that involves 
        the fishing community and Federal, state, and academic 
        scientists. Research should benefit from linkages to the 
        Integrated Ocean Observing System. Funds for such cooperative 
        research projects should be awarded on a competitive basis.

  <bullet> Bycatch Reduction. Bycatch should be addressed continuously 
        to ensure the sustainability of fisheries and ecosystem 
        services. Fishermen should be allowed to keep fish they catch 
        within conservation limits, rather than be forced to discard 
        and waste one species because it is in a target fishery for 
        another. Bycatch reduction efforts should include accounting 
        for such resources with regard to Total Allowable Catch.

  <bullet> Council Membership. Require Governors to submit a slate of 
        candidates that represents a broad cross-section of the public 
        as nominees to the regional councils.

  <bullet> Training. Require training on a variety of topics relevant 
        to fishery management for new Regional Fishery Management 
        Council members and make such training available to 
        representatives from interest groups and industries.

  <bullet> Education. Foster public understanding of ocean resources, 
        including the importance of conservation measures aimed at 
        sustaining fisheries and the linkages between human health and 
        the health of oceans.

  <bullet> International Leadership. Promote adoption and observance of 
        international standards for the sustainable harvest of coral 
        reef and other living marine resources.

    Reauthorization of the Magnuson-Stevens Fishery Conservation and 
Management Act should incorporate these and other relevant guiding 
principles as articulated in the reports of the U.S. Commission on 
Ocean Policy and the Pew Oceans Commission. The Joint Ocean Commission 
Initiative has identified fisheries management as a priority issue and 
will continue to monitor developments in this area.
                                 ______
                                 
         Prepared Statement of Hon. Leon E. Panetta, Chairman, 
                         Pew Oceans Commission

    I would like to thank the U.S. Senate Committee on Commerce, 
Science, and Transportation for the invitation to testify at the 
hearing on reauthorization of the Magnuson-Stevens Fishery Conservation 
and Management Act. I regret that a prior commitment prevents me from 
participating in the hearing, and I appreciate the opportunity to offer 
my comments to the Committee in writing.
    Oceans and coasts are severely threatened, domestically and around 
the world. To formulate responses to these threats, two major national 
commissions released reports in 2003 and 2004. These commissions, the 
Congressionally-created and Presidentially-appointed U.S. Commission on 
Ocean Policy, chaired by one of your witnesses today, Admiral James 
Watkins, and the privately-funded Pew Oceans Commission, which I had 
the pleasure to chair, identified remarkably similar core priorities 
and made complementary recommendations in a number of key areas--
including the need for fisheries management reform. I applaud the 
Committee for taking up this important issue and would like to 
compliment Committee Chairmen Stevens and Inouye for their leadership 
and for working together in a bipartisan fashion to build broad support 
for a bill that would reauthorize this important piece of legislation.
    Earlier this year, Admiral Watkins and I agreed that it makes sense 
to work together to capitalize on the work of the two commissions. To 
that end, we have formed the Joint Ocean Commission Initiative. It is 
guided by a ten-member task force (five from each Commission). The 
primary goal of the Joint Ocean Commission Initiative is to accelerate 
the pace of change that results in meaningful ocean policy reform. The 
Commissioners involved bring extraordinary expertise, perspective, 
relationships, and diversity of interest to ocean and coastal policy 
reform. This foundation can serve as the basis for a greatly expanded 
understanding of the critical issues facing our oceans and supporting 
action at regional and national levels to address these problems.
    One of the Joint Ocean Commission Initiative's purposes is to 
monitor and assess the progress being made toward meaningful ocean 
policy reform, and we are committed to a careful examination of what 
progress is being made and what is lacking. The Joint Initiative has 
identified several priorities for concerted attention and chief among 
them is fisheries management reform. We also have developed a statement 
of principles on fisheries management and recovery. This statement of 
principles is based on the findings and recommendations of both 
commissions, and the Joint Ocean Commission Initiative believes the 
concepts included in that statement should guide and be incorporated 
into meaningful and effective fisheries legislation. This statement of 
principles has been shared with your offices; I am also attaching the 
statement to my comments for your convenience.<SUP>*</SUP>
---------------------------------------------------------------------------
    \*\ See Appendix A of Admiral Watkins prepared statement.
---------------------------------------------------------------------------
    Admiral Watkins and I join our fellow commissioners in thanking the 
Committee staff for opportunities to discuss earlier drafts of this 
bill and provide comments and suggestions. We are pleased to see that a 
number of our concerns have been addressed in the current bill. The 
following highlights a few specifics to which I would like to direct 
the Committee's attention, both to acknowledge the incredible work that 
has gone into developing this bill, and also to point out provisions 
that we believe can be further strengthened.
    Strengthening the use of independent science in fishery management 
decisions. Both Commissions have stressed the need to strengthen the 
use of independent science in fishery management decisions, including 
through measures such as the items outlined below.

  <bullet> Recommendations of Science and Statistical Committees. We 
        are pleased to see language in the bill that requires Science 
        and Statistical Committees (SSCs) to recommend acceptable 
        biological catch levels or optimum yield limits to their 
        Regional Fishery Management Councils (Councils). Both the U.S. 
        Commission on Ocean Policy and the Pew Oceans Commission 
        recommended amending the MSA to require Councils to set annual 
        catch limits at or below the level recommended by their SCCs. 
        However, the bill requires that Councils only ``consider'' the 
        SSCs' recommendations. We believe the Councils should be 
        required to follow rather than just ``consider'' the scientific 
        recommendations of their SSCs.

  <bullet> SSC appointments. In addition, as recommended by the USCOP, 
        we would like to stress the importance of having SSC 
        appointments made by the Secretary of Commerce (Secretary), 
        with nominations from the Councils, and vetted through an 
        external peer review process such as the National Academies 
        Ocean Studies Board. Such a process would be an additional 
        check on overtly political appointments and thus help to ensure 
        the independence of science in the decision-making process. The 
        bill does not speak to this point.

  <bullet> Peer review process. We are pleased to see that the bill 
        authorizes the Secretary to establish and initiate a periodic 
        peer review process to evaluate the scientific information used 
        by the SSCs. However, we believe the Secretary should be not 
        just authorized, but required to establish a peer review 
        process. We are also concerned that the peer review process for 
        scientific information described in the bill does not address 
        the standards of the scientific community. The bill need not 
        lay out strict peer review requirements, but language in the 
        two Commissions' reports could be used to establish guidelines 
        under which an executive agency could develop more specific 
        requirements.

    Moving toward ecosystem-based management. Ecosystem-based 
management is an important theme in both Commissions' reports, but the 
bill does not incorporate provisions to move fisheries management 
toward ecosystem-based management. Fisheries management should be 
guided by long-term objectives set for both the fishery and the 
ecosystem, and should consider the linkages between different living 
and nonliving components of the sea, land, atmosphere, as well as the 
health and vitality of human communities. While we are not suggesting 
legislatively mandated standards for ecosystem-based management, we 
would like to see a strong signal in support of the concept within the 
language of the bill. Reauthorization of the MSA offers an important 
opportunity to introduce ecosystem-based management as a central 
concept, especially with regard to providing a framework for improving 
consistency across government agencies. Language in the two 
Commissions' reports could be used to strike the right balance.
    Provisions for an alternative environmental review process. I would 
also like to comment on provisions in the bill that seek to streamline 
implementation of NEPA and the MSA by amending the MSA to provide an 
alternative environmental review process. The bill requires that the 
Secretary revise and update agency procedures for complying with NEPA 
and specifies that the updated agency procedures would supercede NEPA 
procedures and CEQ regulations. While there is a need to improve the 
efficiency and efficacy of the NEPA process, NEPA is the only authority 
that requires agency actions to be considered within an ecosystem 
context. In addition, creating a new process establishes a precedent 
for doing so on other issues and sets fisheries apart from the 
environmental review for Federal actions in other sectors.
    Council appointments, composition, and training. The bill does not 
address the USCOP recommendation that Congress amend the MSA to require 
Governors to submit a broad slate of candidates for each council 
vacancy that includes at least two representatives from the commercial 
fishing industry, the recreational fishing industry and the general 
public. In addition, although the bill contains language about training 
new Council members and advisory panels, it does not make such training 
mandatory. Such training is critical to ensure that Council and 
advisory panel members are aware of new science, policies, and fishing 
technology.
    Recreational fishing license program. We are pleased that the bill 
requires the Secretary to establish and implement a regionally-based 
registry program for recreational fishermen in each of the eight 
fishery management regions. Such a program will enable managers to 
begin to collect better information on this important component of the 
fishing community and is a positive step.
    Cooperative research. We are pleased that the bill requires the 
Secretary to establish a national cooperative research and monitoring 
program. Such a program enhances the quality of fisheries science and 
will improve the ability to address stock assessments, bycatch 
reduction, conservation engineering, identification of habitat areas of 
particular concern, and collection of socio-economic data.
    Cooperative enforcement. We are also pleased to see the expansion 
of cooperative enforcement provisions in the bill, although 
clarification regarding comprehensive data-sharing, and the need for a 
clear lead agency will be needed for cooperative enforcement to be 
effective.
    Mr. Chairmen and Members of the Committee, I commend and applaud 
you and your staff on your efforts to undertake reauthorization of this 
important law that is the cornerstone of our fisheries management 
regime. Thank you for the opportunity to provide these written 
comments. I would be pleased to discuss these and other matters with 
you at your convenience.

    The Chairman. Well, thank you all very much. In listening 
to you, my mind went back to the time when I borrowed a Navy 
plane and flew from Kodiak to the Pribilof Islands just to view 
the foreign fleets that were fishing off our shores in January. 
And following that, Senator Magnuson authorized me to go to the 
Law of the Sea conferences all over the world and to hold 
meetings and hearings on the East Coast, on the Gulf Coast, and 
the West Coast, and Alaska on what fishermen wanted to do about 
some of the problems we faced.
    We have come a very long way since then, and I really do 
appreciate all of you taking the time to be with us here today, 
and I appreciate, Admiral Watkins, your working with Leon 
Panetta on coordination with the Pew Commission. I think it is 
very important.
    All the statements of the individual Senators will be 
placed in the record, but let me call now on the Co-Chairman 
for his statements and any questions he might have. We are 
going to allocate 8 minutes to each Senator here this morning, 
if that is agreeable.

              STATEMENT OF HON. DANIEL K. INOUYE, 
                    U.S. SENATOR FROM HAWAII

    Senator Inouye. I would like to take this opportunity to 
commend you, Mr. Chairman, for establishing a model process in 
drafting legislation. Although the uninitiated will see four 
witnesses and might conclude that this was the alpha and the 
omega of the process, this is the final phase, which was 
preceded by hundreds of hours of listening sessions, meeting 
with boat owners, with fishermen, with canners, and with agency 
heads. This has gone on for months, and I can assure you that 
this has been a model of collaboration and cooperation. We 
realize that we have not come to the end. We have some fine 
tuning to perform yet. But, Mr. Chairman, this is a model that 
I hope the whole Senate will look to very seriously. This is 
what we call bipartisanship.
    My only concern in this bill is what you touched upon. No 
matter how well we draft a bill, we must find some way to bring 
the other nations in line with us because in this huge pond we 
call an ocean, we are not the only ones, and somehow the fish 
go from north to south or east to west, and before they get to 
us, they may be slaughtered on the other end. So I hope that we 
can do something better. But, frankly, I do not know what to 
do. If you do have suggestions on how to improve this, as far 
as the international nature is concerned, I would personally 
appreciate that.
    Thank you very much, Mr. Chairman.
    The Chairman. Thank you.
    Senator Lautenberg.

            STATEMENT OF HON. FRANK R. LAUTENBERG, 
                  U.S. SENATOR FROM NEW JERSEY

    Senator Lautenberg. Mr. Chairman, first let me thank you 
for the work that you did on this landmark process. Your legacy 
here will affect so much of human life that has not been tended 
to, but as a result of your initial work with Senator Magnuson, 
we have a plan that has, I believe, been helpful. If it has not 
specifically taken care of all of the problems, it has pointed 
us into a direction. It has sounded the alarm and has offered 
plans for rescuing a program that is of overfishing and abuse 
of the oceans and the species therein that, if it had 
continued, would have deprived all of mankind of an important 
food source and also disturbing the ecology that nature 
originally laid out for us and that would be so altered by the 
continued abuse and excessive use.
    So I thank you, Senator Stevens and Senator Inouye, for the 
initiation that you have given to this process now with the 
bill you have introduced. Many of the concerns that Members 
have raised have been addressed, and I look forward to working 
with you further on the legislation between now and the markup.
    It is a long way from the New Jersey shore to the Gulf of 
Alaska, but we share an appreciation for the importance of the 
ocean to our States, to Hawaii, to Oregon. Wherever you look in 
the coastal states, fishing and the recreation, as well as the 
commercial value attached to that, is a critical part of our 
culture and our existence. Fishing is a major industry in those 
states, a beloved form, as I said, of recreation for our 
citizens.
    So I commend you, Mr. Chairman and Senator Inouye, for your 
hard work to rescue our fisheries. And I am pleased that the 
bill incorporates many of the recommendations of the Ocean 
Commission. My congratulations to you, Admiral Watkins.
    I would hope you would also consider responding to the 
Commission's call for protecting deep sea coral and sponges. 
Only in the last decade have scientists truly begun to 
understand the importance of deep sea corals. Unlike tropical 
corals, deep sea corals grow in waters below 50 meters in 
depth. They are fragile, grow slowly, and take as long as 100 
years to regenerate once destroyed. In recent years, scientists 
have learned that they have got to provide essential habitat 
for hundreds of marine species.
    A 2002 survey of the sea floor in the Aleutian Islands--and 
I was interested, Mr. Chairman, when did you take that airplane 
to Pribilof?
    The Chairman. 1970.
    Senator Lautenberg. 1970. Well, you got an early look at 
what was taking place, and I am sure it has helped to direct 
your thinking to protecting the species and the waters that 
they live in.
    A 2002 survey of the sea floor of the Aleutians, 
researchers found that 85 percent of certain species of rock 
fish present were found in deep sea corals. Indeed, it is the 
North Pacific Council that unanimously set the standard for 
protection of deep sea coral and sponge habitat, while 
maintaining access to existing fisheries.
    The same year NOAA stated that deep sea corals--and I quote 
from their report--are ``much more extensive and of more 
widespread economic importance than tropical coral reefs.'' We 
need to manage our marine resources so that we can study them, 
enjoy them, and use them for many years to come. When a 
fisherman destroys sea coral for the sake of today's catch, he 
burdens all of those who want to fish tomorrow.
    Mr. Chairman, I do not want to prevent fishermen from 
trawling. There are many areas where it is appropriate, but 
surely we can set aside some of the most fragile coral habitats 
and protect them from destruction. And I look forward to 
working with you, Mr. Chairman, on this important bill.
    The Chairman. Thank you very much.
    Senator Cantwell?

               STATEMENT OF HON. MARIA CANTWELL, 
                  U.S. SENATOR FROM WASHINGTON

    Senator Cantwell. Thank you, Mr. Chairman. Thank you and 
Senator Inouye for your leadership on this legislation, which I 
am happy to be a co-sponsor of and happy to say I think 
incorporates a lot of issues that are important both for the 
Northwest region and for the United States.
    I thought I would ask a couple of questions of Admiral 
Watkins to make sure that we are on the right track as it 
relates to the Commission's report. Obviously, we heard today 
from witnesses about the Councils' scientific and statistical 
committee determination and about biological catch. Now, this 
is something we, in the Northwest, are very familiar with.
    How important is it do you think that we incorporate these 
recommendations into the legislation?
    Admiral Watkins. Well, Senator, I think from our 
observations, it is essential that we put enough guidance in 
here so we do not have misuse of what was intended by the 
Congress in this piece of legislation. We found that we have a 
plethora of management techniques out there, a totally 
different concept of who makes up the SSCs, a totally different 
sense of how important the science-based information is to the 
SSC. It varies all over the map.
    This is why in our report we cited the work done on the 
North Pacific Fisheries Management Council in Alaska because 
they have addressed this. They do it. I think that they are 
worried about anything that would come out of this legislation 
that would undo what they are doing well up there. It is 
worrisome to them. They think they are doing it right, and I 
think they are doing it right. So the degree to which we can 
codify the best practices is extremely important, and I think 
the bill goes a long way toward doing that, to setting the 
standard.
    And I have recommended in my oral statement here and in my 
written statement some areas that we think could even enhance 
it further. We are actually putting clearer words, I would say, 
as to what we really want them to do, and we certainly want 
them to listen to the science. We want the cooperative research 
program with the fishermen and NOAA coming together in their 
database so that we are all on the same page. All these kinds 
of things are in our recommendations. So the extent to which 
you put that into legislation is your business up here, but we 
have outlined where we think you can strengthen it in seven or 
eight areas that you now have in a very good bill.
    Senator Cantwell. So harvest levels should be at or below 
the biological catch limit.
    Admiral Watkins. Yes, it could be. We think again that that 
level set by the scientific input to the SSCs should be the way 
to go, and we should not deviate from that.
    Senator Cantwell. Some people have complained about 
ecosystem-based management. Do you think there are good 
examples of ecosystem-based management taking place today?
    Admiral Watkins. I think that, there again, the fisheries 
management council in Alaska agrees. They do ecosystem-based 
management. That is the way they work up there. We are seeing 
this, as I mentioned in my oral statement--and I think probably 
Senator Inouye was involved in it. The Western Pacific 
Fisheries Management Council has just adopted four ecosystem-
based plans. I have not seen those plans, but I understand they 
are excellent. So we are beginning, I think, to move toward 
that concept.
    Some people think it is ill-defined. Okay, but let us give 
it a chance to work. We cannot do it species by species 
anymore. We are getting into too many litigious situations. We 
have got discrepancies in the minds of people working with both 
NEPA and the fisheries management plans. All these things have 
to be reconciled. We have got 140 laws that do not all talk to 
each other, that are counterproductive. Again, the ecosystem 
starts right here in the laws. When you integrate the laws in 
an ecosystem-based way, then there is a lot more cross-talk 
going on between multiple committees up here and subcommittees 
than ever before.
    So this particular Act is important because it can be a 
start, a node into which so many other things can plug. Non-
point source pollution, point source pollution, the coral reef 
issues, the airborne contamination of mercury, all those kinds 
of things can be plugged into the MSA. If we write the MSA 
right to accept those cross-decking items, then I think we have 
a tremendous opportunity here to take this and expand it 
further into all other aspects that we have recommended in our 
commission. So you asked if it is important. I think it is 
extremely important.
    Senator Cantwell. Thank you, Admiral Watkins. I appreciate 
that perspective on how important science is and I am glad to 
know that the legislation does follow the Commission's 
recommendations.
    You brought up NEPA, and I wanted to ask a couple of the 
other panelists about the Administration's support of NEPA in 
this process and whether you supported including NEPA as a part 
of this process in the legislation.
    Mr. Connaughton. Yes, Senator. Actually we were pleased to 
work closely with the Committee in the development of that 
language, and we do strongly support improvement of the 
integration of the NEPA process into the fish planning process. 
In fact, from my perspective as a long-term student of NEPA, it 
has always amazed me how NEPA is not integrated because in 1969 
when NEPA was created, if you read NEPA 101, it calls, it 
compels the integration of these environmental aspects of 
decision-making into decision-making.
    So, I think there is a real opportunity in the fisheries 
management context to do state-of-the-art NEPA work, that it 
achieves coincident time lines, integrating the NEPA assessment 
work into the planning process, and hopefully we can get to 
convergence of a unified process, not even two that run in 
parallel, but a more unified process. We are looking forward at 
CEQ to providing not just the support in the legislation, but 
we are looking forward in our role on the executive branch side 
of things on helping each of the regional fish councils with 
implementation of these ideas.
    Senator Cantwell. Mr. Dunnigan, you look like you wanted to 
comment on that.
    Mr. Dunnigan. What I would like to do, Senator, is to 
support the comments that have been made by Chairman 
Connaughton.
    There was a time when NOAA was under a difficult litigation 
burden--and the Committee Members are aware of this--largely 
related to the way that we did or did not implement NEPA. We 
have been able to turn that around over the last couple of 
years. We continue to believe that NOAA can be an effective 
tool for the Department, for NOAA, for the public-at-large in 
understanding these issues and being able to make the best 
decisions we can for the future.
    Senator Cantwell. Thank you.
    Again, Mr. Chairman, I am happy to be a co-sponsor of this 
legislation. Thank you for the open process of having so many 
different issues discussed and getting us to this point.
    The Chairman. Has the Senator completed?
    Senator Cantwell. Yes, thank you.
    The Chairman. Senator Smith?

              STATEMENT OF HON. GORDON H. SMITH, 
                    U.S. SENATOR FROM OREGON

    Senator Smith. Thank you, Mr. Chairman. I join my 
colleagues in expressing to you and the Ranking Member 
appreciation for your hard work on this bill and your staffs'.
    I particularly appreciate the inclusion in the legislation 
of language extending State authority to manage the Dungeness 
crab fishery, as well as, language implementing the terms of 
the agreement on Pacific hake/whiting signed by the United 
States and Canada. These are provisions that are very important 
to crabbers and fishermen in my state.
    I think it is a good effort, and I have only one question 
and that is for Jim Connaughton. Nice to see you, Jim.
    The Administration and both the ocean commissions have 
recommended moving to a more ecosystem-based approach to 
fishery management. Many of my colleagues have spoken to this, 
and obviously, I support that, but I am also aware that you are 
not looking for more lawsuits. You have got your share. I 
wonder if there is such ambiguity in this that you worry about 
more lawsuits. I am interested in hearing how the 
Administration would propose avoiding additional litigation 
under this ecosystem requirement that we are speaking about 
this morning.
    Mr. Connaughton. Thank you, Senator, and it is good to see 
you again.
    I just want to underscore the centrality of the ecosystem 
concept because we now have an appreciation, after 30 years of 
experience with marine management and land management and new 
environmental laws and new land planning components. The 
answers that we have to face in the future are complex. They 
are no longer dealt with in a silo: fisheries here, coastal 
zone there. So the concept is important to get all of the 
actors in the process talking to each other, as the Admiral 
said, ``That should not become an instrument of litigation.'' 
In fact, the collaboration that that inspires should help to 
reduce conflict and, at least in areas of disagreement, sharpen 
those areas. So that is what we are working with at the back 
end.
    Now, we tried to design the Administration bill to use this 
as a starting point for the conversation and make it very clear 
that this should not be a point of litigation. I operate on the 
principle that we have to avoid the term ``no good deed goes 
unpunished.'' And many see putting their feet into the water on 
ecosystem-based conversations as the prospect of a good deed 
going punished by litigation, again process as a tool to 
produce substantive outcomes. So that is where we have to find 
a path.
    I think we can construct that because we have seen, for 
example, in the forest context with actually your leadership, 
Senator, a way to construct the NEPA process and the Healthy 
Forest planning process in a way to facilitate the up-front 
collaboration, which is really ecosystem-based, again to 
diminish the prospect of conflict.
    Now, we also set some pretty specific terms regarding the 
potential of future litigation. Our experience there shows it 
is working. In the forest context, we went from 8 out of every 
10 decisions being litigated to currently 2 out of every 10 
decisions being litigated. That is huge forward progress. So it 
does require, though, careful thinking.
    The other point I would make is ecosystem management 
thinking is a two-way street. Certainly a fishery management 
process in a regional fish council is not responsible for the 
ecosystem as a whole. There are other people who have 
responsibilities and obligations as well. And so we cannot 
expect the burden of the ecosystem philosophy to start with and 
end with the fishery councils. So just even one of our goals 
should be to have a process where the fishery councils can take 
into account what is coming from some of the other broader 
ecosystem planning efforts. Like I would commend the effort in 
Puget Sound, for example. The forward movement and 
collaboration there is wonderful to behold. Now, that is a 
great input into the regional fish council process, and we 
should not sanction the fish council people for really trying 
to be more of a part of that in integrating that thinking. So, 
again, the fear of litigation in my mind is what leads people 
to say no, and we need to find a way to diminish that.
    Senator Smith. Well, thank you, Jim. I ask the question in 
part because I know your motivation is not to invite more 
litigation, but rather to have a legislative history that 
courts can draw upon, as well as these local management 
councils that can start putting it together, establishing some 
precedent that will make it so that we do not do our fishing in 
court, that we can do it on the basis of evidence, experience, 
and precedent.
    So thank you very much. Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Senator Snowe.

              STATEMENT OF HON. OLYMPIA J. SNOWE, 
                    U.S. SENATOR FROM MAINE

    Senator Snowe. Thank you, Mr. Chairman. I am sorry that I 
was late. I had a conflict this morning, meeting with Judge 
Alito.
    First of all, I just want to congratulate you, Mr. 
Chairman, for your efforts in assembling a reauthorization of 
the Magnuson-Stevens Act. I know it is going to go a long way 
to setting the stage and the foundation for addressing some of 
the key issues and conflicts that have emerged over the years. 
As one who has chaired numerous hearings on this question, I 
can assure you that this represents a major breakthrough in 
reaching the point to which we can have a reauthorization.
    I want to welcome all of you here today, especially Mr. 
Lapointe. Thank you for being here from Maine. I appreciate it.
    [The prepared statement of Senator Snowe follows:]

  Prepared Statement of Hon. Olympia J. Snowe, U.S. Senator from Maine

    Thank you, Mr. Chairman, for convening today's hearing on one of 
the most complex and critical issues facing our Committee today--
reauthorization of the Magnuson-Stevens Fishery Conservation and 
Management Act. And because this Act bears your name, Mr. Chairman, I 
have no doubt that you fully appreciate the magnitude of the challenges 
before us. From small fishing ports vital to Maine's heritage, to 
remote fishing outposts in the Aleutian Islands, this bill will have 
significant, far-reaching impacts on our Nation's coastal economies and 
environments. Therefore, I am profoundly grateful for your recognition 
of the unique issues facing Maine fishermen and pleased to offer my 
support of this bill.
    The bill we are considering today would update and renew our 
Nation's predominant fisheries law, which, since 1976, has governed all 
Federal fishing activity in our Exclusive Economic Zone. Congress last 
reauthorized this law with the Sustainable Fisheries Act in 1996, which 
expired 6 years ago. Since then, this Committee--and most particularly 
my Subcommittee on Fisheries and Coast Guard--has been at the forefront 
of an ongoing debate about how America should manage its fisheries, now 
and into the future.
    Today we will discuss a bill that attempts to answer this question, 
but first, we must note our recent history of managing fisheries under 
the current Act. I am now completing my 9th year as Chair of the 
Fisheries and Coast Guard Subcommittee, and during my tenure it has 
become abundantly clear that no two fisheries are identical, and that a 
diverse array of challenges affect fish stocks, our fishermen, their 
communities, and the overall seafood industry.
    For example, when I chaired a series of 6 field hearings on this 
Act around the country in 1999 and in other hearing and listening 
sessions since then, I heard from fishermen who were being forced out 
of their fishery because stocks were rebuilding slower than models 
predicted--or, in the case of New Orleans, because their industry was 
literally wiped off the map--and where assistance programs are a 
paramount concern. I heard from scientists who struggled--sometimes 
unsuccessfully--to collect data and set accurate rebuilding targets. I 
heard from Council members who labored under onerous review processes 
and insufficient funds for meeting their obligations. I heard from 
regulators who misunderstood congressional intent on minimizing fishing 
community socio-economic impacts and applying flexibility and balance 
among management goals.
    The experience of Maine fishermen shows the reality of trying to 
make a living in the face of these challenges. In the midst of a 
lawsuit--based on the claim that fish were not recovering fast enough--
scientists discovered that they severely underestimated rebuilding 
targets and miscalibrated their data collection gear. The management 
plan for resolving the case required such severe cuts that fishermen 
now have--on average--only 52 days of fishing a year. And while the 
Maine industry once employed more than 8,500 people and supported more 
than $530 million of our state economy, we are still coming to terms 
with fisheries unemployment and foregone fishing on healthy stocks. And 
while these challenges persist in Maine, they are certainly not unique 
to our region.
    But previously, reaching any consensus on what to do about these 
issues has eluded our Committee's grasp. We have gathered a great deal 
of testimony from those who advocate for stricter fishing limits in the 
Act, and we have heard from just as many who want to ease these limits. 
Given these mixed messages, we have struggled to define the middle 
ground that will ultimately lead to sustainable fish stocks and fishing 
communities for years to come.
    Today, however, I am optimistic that we are on the verge of a 
breakthrough. Chairman Stevens has proposed a bill that may very well 
chart a way forward, out of the quagmire that often characterizes our 
fisheries today.
    This bill would put scientists in a key advisory role to the 
Councils, and direct managers to weigh their recommendations carefully 
with other management goals in determining appropriate harvest levels. 
It would also streamline the environmental review process, restoring 
common sense to an already thorough management system. And, as I 
included in my Fisheries Conservation and Management Act of 2004, his 
bill would authorize national standards for limited access or quota 
programs and encourage a national cooperative research system.
    Of course, I must thank our Chairman working with me on several 
provisions of key interest to Maine. The bill now contains language 
clarifying our intent with National Standard 8, to improve socio-
economic impact assessment and mitigation. To resolve issues unique to 
the New England region, it would mandate two-thirds approval for new 
quota programs, a Gulf of Maine herring study, a review of state 
fishing on federally-managed groundfish stocks, and efforts to 
streamline approval of experimental fishing permits. Mr. Chairman, I 
also appreciate your willingness to consider Maine's concerns regarding 
catch limits and processor quotas, and I believe the language in this 
bill reflects significant progress on these challenges.
    Collectively, these measures, and several others still under 
review, will make great strides in improving fisheries management--in 
Maine and throughout the Nation. That is why I am pleased to co-sponsor 
this bill. At today's hearing and in the months ahead, we will hear 
additional ways to refine the provisions of this bill, but I am 
confident that the basic framework proposed herein will lead to 
positive changes for our Nation's fisheries and fishing communities.
    This hearing is a critical step on the road to final passage, and I 
thank you and all participants here today for your on-going dedication 
to improving our Nation's fisheries law. Mr. Connaughton and Mr. 
Dunnigan, I look forward to your testimony on behalf of the 
Administration. George Lapointe, I am very pleased to see you here 
today from Maine--I am confident that you will help us understand 
management from the Council perspective as well as from the unique 
Maine perspective. And Admiral Watkins, I am so pleased to see you 
before us again, representing the views of the U.S. Commission on Ocean 
Policy. The Committee--and our Nation's fishermen--will certainly 
benefit from your collective insight.
    Thank you, Mr. Chairman. I look forward to working with you as we 
strive to complete our Committee's common goal of passing a solid, 
scientifically-based bill that will allow all our Nation's fish and 
fishermen to thrive.

    I would like to start off with the value of this bill that 
is before us because I think it is going to be critical to 
getting a reauthorization that now has been overdue for almost 
6 years. Hopefully, it can put us on the path to resolving some 
of the issues.
    One of the questions has already been raised concerning 
lawsuits, and certainly in our experience with amendment 13--we 
certainly had wide-ranging issues and lawsuits in that regard.
    To what extent do you believe that this legislation, as 
drafted, will help to reduce or alleviate the number of 
lawsuits? Mr. Lapointe?
    Mr. Lapointe. I think that the bill, as drafted, if 
implemented, will continue the path that other people have 
talked about. We are getting smarter about how we put together 
our fishery management plans at the Council. The legislation 
will, I believe, assist in that. When the bill is passed and we 
move forward with implementation, I think that we need to 
continue on the path we have had of putting better plans 
together, following process better so that, in fact, it 
minimizes the chance of lawsuits.
    When Mr. Connaughton mentioned ecosystem management, I 
think one of the things we have to do is learn from what we 
have done on the fisheries side as we incorporate ecosystem 
elements and build records and build processes that minimize 
the chance of lawsuits. And I think this will all help in doing 
that.
    Senator Snowe. Mr. Connaughton, do you agree? Is it going 
to help? Because so much of this whole process has been 
litigation. I am glad to see the streamlining of the National 
Environmental Policy Act in conjunction with the fishery 
management plans. I think that is going to be helpful. Do you 
see it mitigating a number of lawsuits in the future?
    Mr. Connaughton. I see that it can, and let me give the two 
respects that will--I think further discussion with the 
Committee and refining the bill and then a good understanding 
on the implementation side of what we need to do is important.
    First, the bill assures more completeness of process and 
information. So the science component, the notion of getting 
better data, for example, from the recreational fishing side of 
things, as well as better and ongoing data collection in each 
of these systems, that is the kind of thing that tends to, one, 
produce litigation or enable the judicial process to put a halt 
to things because courts tend to say--if there is a gap in 
process or information, that is where courts step in and say, 
well, go fill in the gap. So the essential elements of this 
bill do a really nice job of creating, again, this more 
complete process of data collection, integration, and thinking. 
By the way, if you end up in a lawsuit, courts then will defer 
to the administrative processes.
    Certainly the process in which this bill was developed is 
one that can be expanded and replicated in the day-to-day 
implementation. Under the leadership of the Chairman and the 
Co-Chairman, they themselves have created a process where we 
are sitting here at the first hearing where we have 80 percent 
to 90 percent alignment. That is huge, which means we can 
actually move rapidly on this, not slowly, to get it forward.
    With the fish council process, the new enhanced scientific 
process, hopefully with a little more expanded representation 
on fish councils, we can begin to lay those planks down where 
outside reviewers do not have a basis of complaint. So that is 
the completeness side of things.
    The other side of things is the definitional area. With the 
experience of the last 10 years, following the Sustainable 
Fisheries Act, we have seen some places where just 
definitionally we created some problems and ambiguity brooks 
litigation opportunity. The bill does a nice job of clarifying 
some of our experience in finding common ground among the 
councils so we can get more consistency.
    Again, there too, if you end up in a litigation scenario, 
judges have a very hard time interfering where there is greater 
consistency and common understanding. They do not like to undo 
that. But when there are 20 different viewpoints on a 
particular term, then judges like to throw their oar in the 
water and decide it for themselves.
    I would note, though, there remains the challenge with the 
NEPA process issues and the fact that, again, fisheries are an 
area of great passion, that there are some elements in here 
that we can continue to work on together to be sure we are not 
creating a litigation lever because something is new. And I 
think that is where Senator Smith's comment about the 
importance of this record that we are laying here today and the 
importance of the legislative history is going to be essential. 
These are evolving concepts we are dealing with, especially 
ecosystems, and we should be working them out between the 
Congress and the Administration. We should not be looking to 
the courts to set up these definitions for us.
    Senator Snowe. Mr. Dunnigan, do you have any views on that?
    Mr. Dunnigan. Thank you very much, Senator. I would agree 
fully both with Commissioner Lapointe and Chairman Connaughton. 
Litigation can be extremely burdensome within the agency. It 
saps lots of our resources, and so we have been very sensitive 
to this in working with the Committee and its staff. We think, 
as Chairman Connaughton has said, the procedural provisions and 
the record-building that is implicit in the way that this law 
has come together is going to help us move forward in a way 
that is going to be more productive.
    Senator Snowe. On the issue of hard total allowable 
catches--and I know, Mr. Dunnigan, you indicated, 
unfortunately, the legislation is providing some flexibility. 
Those of us in New England really appreciate that, Mr. 
Chairman, because we have some concerns. If you had a finite 
total, it would be very difficult to include other issues that 
might have an impact.
    Mr. Dunnigan, apparently you have said that fisheries 
within the hard TAC did not result in sustainable stock. Is 
that true?
    Mr. Dunnigan. I do not think our testimony says quite that.
    The problem we have in the way we manage fisheries is, 
first of all, fisheries are different.
    Senator Snowe. It was in the NMFS groundfish assessment 
report in 2005.
    Mr. Dunnigan. I think the comment then was probably 
relating to the fact that we are looking at a number of stocks 
that right now are not yet sustainable in New England, and the 
Council has been using the effort control and the non-TAC 
mechanism for doing it and perhaps trying to draw a link.
    The problem when you go with effort control mechanisms, as 
we have in the New England groundfish fishery, is that they are 
very imprecise. So in order to get the benefits that you want 
to have, you end up having to do a lot of regulation. The 
question of whether that is right or wrong is a policy question 
really that the Council ought to be making the choice about. We 
feel that it is our job to work with them and to support them 
where we can.
    So it is a different way of doing fisheries management. 
Sometimes it can work well. It is difficult because it is 
imprecise as opposed to a TAC mechanism where you set a target 
and then you regulate to achieve that specific amount.
    Senator Snowe. Thank you.
    The Chairman. Thank you very much.
    I hope you have noticed that title IV is an international 
section and it really deals with the whole question of these 
international problems related to section 609, Illegal, 
Unreported, and Unregulated Fishing.
    I was just talking with Senator Inouye. It is my intention 
that if this bill is enacted with those provisions, to once 
again go to the U.N. Now, when we had the anti-drift net 
fisheries action taken by Congress, I did go to the U.N. and 
Madeleine Albright was kind enough to arrange for us to have 
some visibility of our intention to start enforcing the 
provisions of that Act on the high seas, as it affected our 
fisheries.
    I contemplate that we would also, once again, go to the 
U.N. and really advertise the fact that we intend to do just 
what the Admiral was talking about, reach out beyond the 200-
mile limit and protect our fisheries, whenever it is necessary, 
through actions to prevent this illegal type of unregulated 
activity, particularly the process of trawling in the deep 
seas, Senator Lautenberg. It is a very vicious thing.
    We have to give credit, I think, to Dr. Sylvia Earle to 
alerting us all. She has been using those miniature submarines. 
She has been observing our outer continental shelf and the 
actions of these foreign fishing fleets to disrupt fisheries in 
that area. I do hope you all are aware of that.
    Second, I am going to ask you all. It is our opinion and if 
you look in the bill, the bill does not mandate the concept of 
eco-based systems management because it is already in the 
Magnuson-Stevens Act. Four regional councils are already 
pursuing pilot projects. Our Alaska area initiated it years 
ago. So why should we mandate what they already have authority 
to do?
    I think what we have got to do is encourage. If you look at 
the sections we have, the findings of the Act, and the 
definitions, and the fishery research provisions in section 4--
do you agree that is sufficient to deal with this concept of 
eco-based systems? There are some people who think we ought to 
come in now and mandate the others to move forward immediately. 
I believe we should leave it to the councils to pursue what is 
authorized under the Act. Do you agree with that, Jack?
    Mr. Dunnigan. Thank you, Senator. I appreciate that. I 
think we were aware--and one of the things that we have learned 
in thinking about this concept of ecosystems-based fisheries 
management over the last 2 or 3 years is just the point that 
you made. We have been doing this and various aspects of it for 
a long time in our regulatory programs, in our science 
programs, and in our data programs. So there is a substantial 
amount of authority that is in the law already.
    I think our thinking was that the concept is getting such 
currency and it got so much support from the ocean commissions 
and from the President's Ocean Action Plan, that this was too 
good an opportunity for the real policymakers here, for the 
U.S. Congress, to pass up, to not spend some time thinking 
about whether there could be improvements that could be made in 
the way that we address our approach to ecosystem-based 
management. The Administration's bill contains a number of 
ideas, but they are not necessarily the end all. But we wanted 
to make sure that we were at least aware of this so that we 
could try to move forward.
    The Chairman. Well, if you look at the provisions 
pertaining to NEPA, for instance, now--you have addressed 
that--our council had a 7,000-page EIS that it had to prepare 
before it could come up with this new fisheries management 
plan. This bill says you do both at the same time. You must 
comply with NEPA as you make your plan and not have a plan and 
then go back and try to see how you comply with it.
    Is it not the same thing with eco-based systems? We give 
them the authority and encouragement to do what we think they 
should do. But these are regional councils. They do not all 
proceed at the same pace. Why can we not do the same thing with 
the eco-based system concept, saying we have the authority? We 
want you to do it. Here are some of the goals we have set for 
you.
    There are some people now who want to mandate that. I 
believe if it is mandated instead of incorporated in, as we 
have NEPA, we will face increased litigation on the eco-based 
system. Now, am I wrong, Jim? Am I wrong?
    Mr. Connaughton. In substance, sir, you are right, and I 
just want to underline, which is why our philosophy actually is 
not to create something new. It is actually to shine a light on 
a concept that has now emerged and is taking traction.
    I would just underline your point, Mr. Chairman. Section 
102 of the CEQ regulations that have stood the test of time for 
35 years requires that the NEPA process initiate and utilize 
ecological information in the planning and development of 
resource-oriented projects. So this is an age-old idea. What we 
are doing is giving it the currency and centrality that it 
needs.
    Now, I think in our bill what we tried to do was just that. 
We did not want to add new elements. What we wanted to do was 
identify this as an important operating principle in the 
planning and decision-making process and then add the tools, as 
Jack indicated, that will further enable councils and those 
participating with the councils to accomplish this objective. 
We have come a long way from the time when Magnuson-Stevens was 
first enacted. We have come a long way in how to get there.
    I think in a sense, sir, you are saying, if you have got 
webbed feet and wings and a long bill, you now have a duck. In 
that sense, we have got a lot of elements of the NEPA process 
and the fisheries planning process that add up to ecosystem-
based management. So why do we not just go ahead and let people 
know that is what they are doing is our philosophy.
    The Chairman. Well, that is the goal that we have here.
    I sent some of the provisions of the Administration's bill 
to some of the marine and fishery biologists and scientists to 
see if we ought to put the definition of eco-based system in 
the bill. They say that they are following the concepts now, 
and they think that narrows their goals rather than giving them 
the broad vision of eco-based system as viewed by each council. 
Now, is that acceptable? Mr. Lapointe, do you have a point?
    Mr. Lapointe. As a council member, I encourage that line of 
advancing the ecosystem-based management. I first sat on the 
councils in the mid-1980s as a nonvoting member for the 
Atlantic States Commission, and you did not hear the concept. 
Now you hear it at every council meeting. The concept of 
ecosystem-based management is clear as the nose on all of our 
faces, a little clearer on mine because my nose is bigger.
    But the councils are working to integrate ecosystem-based 
concepts. As Jack said, we are trying to provide incentives so 
that in fact the councils can move forward with this effort. We 
all know it is more data-hungry than it used to be, but trying 
to provide the information and the tools so that, in fact, the 
councils can move toward more ecosystem-based management.
    The states also recognize this. The Atlantic States 
Commission has a multi-species assessment plan that is going 
through the Federal process so that, in fact, we are making 
sure it is scientifically sound, and it will provide the tools 
so that, in fact, we can do a better job of that evolution 
toward ecosystem-based management.
    The Chairman. I am using all the time. Jim, did you want to 
comment on that?
    Mr. Connaughton. I just want to say I think based on this 
conversation, Mr. Chairman, I think we can accomplish what you 
desire by emphasizing the tool-based elements of this bill as 
the elements to contribute further to sounder ecosystem-based 
thinking. We share the concern about creating a concept that 
gets a narrow definition and then gives rise to just a new 
lever for litigation. That is not what we want to achieve here. 
We want to actually expand the innovation, expand the tool 
base. So, I actually think there is a way in this legislation 
to shine the light that this is what we are doing, but to do it 
in a very practical way where the substantive elements are 
contained in the very provisions that you cited.
    The Chairman. Jim, do you have a comment?
    Admiral Watkins. I agree with that. Mr. Chairman, I do not 
think it is necessary to mandate it. I do think it is good to 
give a nod to it, to say this is the right approach.
    In our whole report, we tried to get a bottom-up from the 
states meeting the top-down from the Federal level, and I think 
we did that. The State of California today is sending a letter 
to the White House that says we have gotten our act together. 
Here is what we want to do to collaborate with you.
    Now, it seems to me that we could provide an incentive that 
when those plans come in from the states, from the regions of 
the country, to put their ecosystem into a balance that they 
think is right, to accept that only if it takes account of the 
whole ecosystem, including the socioeconomic impact.
    Let us not mandate it, but let us say it is best business 
practices here. Let us encourage it to be done and let us 
incentivize those states that come in for collaborative work 
with the Federal Government to get the nod over those that do 
not use ecosystem-based approaches.
    The Chairman. Well, Jim, I think we have mandated it. We 
have not narrowly defined what eco-based management is. The 
fear is the definition will be so controversial it will lead to 
litigation, whereas the scientists and biologists and other 
people involved in marine management say, look, we accept this 
as a goal, but let us define it for our area.
    Admiral Watkins. Also, Mr. Chairman, you have to look at 
the science. Each of the regions of the country are going to 
have a different set of problems that they have to face, and 
the science is not there for ecosystem-based management to be 
mandated because we do not know how some ecosystems work. So we 
have got to do the research.
    So this enables the regional council to say here are my 
research requirements. I need to know about this ecosystem in 
greater detail than I know today, and we should put our high-
priority research package that the Administration is now trying 
to come with by the end of 2006--they are supposed to have 
their research package together. That should be an integrated 
package with the states out there that have the real 
requirements to understand those ecosystems.
    I agree with the comments that have been made. I think the 
time is right. I think people are ready for it. I think you do 
not have to mandate it, but at least say this is a sensible 
approach and it is built into your law. We have to highlight 
it. There are some councils out there that are not doing what 
you are doing well in these four other areas regarding 
ecosystems. They do not get it. They are not doing it right. 
They are not doing the science. They are not demanding the 
requirements, both for their own research, as well as for the 
Federal Government.
    The State of California just put 35 million bucks into a 
coastal ocean observing system. That is an integrated 
ecosystem-based approach. They get it. They are doing it now, 
and I think others are beginning to worry.
    The Gulf of Maine Ocean Observing Initiative up there is an 
extremely important role model for others to be following. That 
is an ecosystem-based approach.
    So I agree with you. You do not need to mandate it, but I 
think somehow we should incentivize those that understand it 
and are doing it.
    The Chairman. Well, if we are going to have increased 
operations for oil and gas exploration on the Outer Continental 
Shelf, I want to see a mandate that part of that money that 
comes to the Federal Government goes in to protect the basic 
resources of the oceans, if it happens.
    Senator Inouye, do you have any further questions?
    Senator Inouye. I just want to say that we should give much 
of the praise to the staff. If it were not for the staff, we 
would not be here.
    The Chairman. Led by Matt Paxton. He prepared a statement 
for me yesterday and I did not have to edit one single word. He 
was really in tune with where we want to go. That was his 
statement that I read.
    Senator Cantwell. Mr. Chairman?
    The Chairman. Well, Senator Lautenberg would be next going 
through the order.
    Senator Lautenberg. Thank you very much, Mr. Chairman.
    I just want to make one point about the need to protect the 
deep sea corals. When we talk about ecosystems, where else 
could we go that is more important than protecting the deep sea 
corals. Mr. Dunnigan, I am sure that you--let me not put words 
in your mouth. Do you agree with the Ocean Commission's 
statement that deep sea corals and sponges are the most 
important habitat for numerous fish species, as well as their 
own value in terms of the pharmaceutical products, et cetera?
    Mr. Dunnigan. Yes, Senator. I think that the habitat values 
that are presented by deep sea corals are enormous. I think, 
unfortunately, they have been under-appreciated for way too 
long. I think the landmark action that was taken by the North 
Pacific Council to step out and protect huge areas of the North 
Pacific is important, as well as the positions that the United 
States has been arguing for in our U.N. negotiations to move 
forward in providing greater protection to these resources. So 
we think that is a good idea.
    Senator Lautenberg. Is the greatest threat to deep sea 
corals the bottom trawling? Is that not the way that most 
damage is done to deep sea coral?
    Mr. Dunnigan. Senator, I am not sure that the science yet 
has told us that that is the case, and I think we have to be 
very insistent that we do this on the basis of good science. We 
know there are problems out there. We know we have to be more 
careful about it, and we would like to see the opportunity for 
the scientific community to develop a more complete 
understanding as we have become more aware of these issues in 
just recent years.
    Senator Lautenberg. Well, the NOAA report says that the 
major threat to deep sea corals appears to be fishing--
associated damage from bottom trawling. They do set out other 
things as well.
    Admiral Watkins, do you have a view on where the risk to 
deep sea corals is greatest?
    Admiral Watkins. Well, we have a section in our report, 
Senator, regarding deepwater corals. And the Commission 
recommended that we get our act together by getting NOAA to 
serve as the lead Federal agency and work with the stakeholders 
to survey the distribution and abundance of these corals, as 
well as the major threats to their existence. So we ought to 
know where they are, just as we do for many other marine-
protected areas. We ought to know where they are. We ought to 
be able to understand all about that, get the science 
straightened out, and the information should be used to develop 
strategies to address protection of these corals.
    So we need something new that we do not have today, and I 
think our addressing of this Bottom Trawl and Deep Sea Coral 
Habitat Act of 2005--we have addressed that subject in our 
report and we think it is very important. Coral and sponge 
habitat are areas of significant ecosystem importance and merit 
attention from the councils, from the Congress, and from the 
Administration.
    Senator Lautenberg. Yes, because I think in the Commission 
Report it says that even one pass with a bottom trawler can 
seriously damage deep sea corals which obviously could take 
hundreds of years to recover. So is there not a need to take 
steps to protect deep sea coral now rather than wait for a 
further outcome of the research that is underway? If we know 
that there is a danger, we know that there is a fire under the 
sea, we ought to try to put it out as quickly as we can.
    Mr. Chairman, my interest at the moment, in addition to 
seeing what I think is a very good bill on your part, is to 
include in there a particular mention on the protection of deep 
sea corals. Where it has already been trawled, then those areas 
can be opened to trawling.
    The Chairman. Well, not necessarily. Sylvia Earle will tell 
you that they are looking at a process to try and stabilize 
some of those areas and reestablish them. But we would be 
perfectly willing to work with you to have specific mention of 
coral protection, but we believe we have got that covered by 
the sections I mentioned, but we will be specific. Admiral 
Watkins' Commission had a specific comment in their report.
    Admiral Watkins. We pointed out that the North Pacific 
Council and the Pacific Council approach has been to freeze the 
footprint of existing bottom trawling to areas already impacted 
and give greater protection to areas that have high 
concentration of corals and sponges. And we are saying that 
needs to be managed specifically. NOAA ought to be in charge of 
it. We ought to be doing the science to understand those areas, 
find out where they are, and then put the freeze on what they 
have already done in the North Pacific Fisheries Management 
Council.
    The Chairman. Well, we originated this in Hawaii and down 
off Fort Jefferson and the Keys. I remember very serious 
problems about trawling and dragging of anchors too.
    Thank you very much, Senator.
    Senator Lautenberg. I just wanted to ask, if I may, one 
last question of Mr. Dunnigan, and that is, New Jersey's 
commercial fishery industry has a history of welcoming 
observers onto its vessels. However, our commercial fishermen 
have some concerns about the amount of training that the 
observers have. Now, is that something that you plan to address 
and to help us sort out?
    Mr. Dunnigan. Yes, thank you, Senator. Within our Office of 
Science and Technology, we maintain a national program for 
improving our observer services around the country. The service 
delivery model is usually done out in the region, but we have 
recognized that there needs to be an effort that is made to 
upgrade the quality and make these programs work better. So I 
think the answer to your question is, yes, we do see the need 
to do that and are doing the best we can to try to move 
forward. Thank you.
    Senator Lautenberg. Mr. Chairman, thanks for your 
leadership on these issues. It is so important.
    The Chairman. Senator Snowe?
    Senator Snowe. Thank you, Mr. Chairman.
    With respect to the individual fishing quota provisions in 
this legislation, or as described in this bill, as limited 
access privileges, I am very pleased that we are going to have 
national standards established for fishing quotas. I think that 
is critical, so that the new quota programs do not negatively 
affect the fishing communities.
    Admiral Watkins, I know the Commission recommended 
establishing national standards. How closely do these standards 
follow the Commission's guidelines with respect to establishing 
the criteria?
    Admiral Watkins. Well, I am not that familiar with that 
particular section, Senator Snowe. Again, when we mandate 
things as opposed to setting strong guidelines, I know that 
that is a difficult line to cross, and we are back and forth on 
it all the time. But we believe there ought to be at least 
national guidelines to help ensure that the programs meet 
biological, social, and economic goals. So whether you mandate 
or you just say here are the best national guidelines we can 
come up with and, again, incentivize those fishery management 
councils that engage in that process, I think again you can 
incentivize those kind of good practices, and I think it should 
be done. So I am not pushing mandatory one way or the other.
    But I do think we need to say these are the best business 
practices and we are not going to support you unless you come 
in within the broad guidelines that we are talking about, work 
by ecosystems, work to achieve the limited access privileges 
that are in the bill. There are ways to do it without mandating 
it. I think maybe we allow a period of time to see if people 
start complying uniformly across the management councils and 
then decide whether or not we need anything further.
    Senator Snowe. Yes, I agree with you. I think it is 
important because many of the councils are proceeding with 
quota-type programs and it is essential to establish a national 
basis in keeping with the national Academy of Sciences' 
recommendations.
    I also appreciate the fact the Chairman has included a 
referendum for the New England Council, requiring support from 
two-thirds of those eligible participants. George, have you had 
a chance to review those standards and the process in this 
bill?
    Mr. Lapointe. I have, Senator Snowe, and I think two 
provisions in the bill are important. The provisions on limited 
access privileges have the referendum to start and the 
referendum to implement, as you just mentioned, and I think 
that is quite critical. And then the language I think in the 
bill on cumulative impacts and the social and economic impact 
that Admiral Watkins has mentioned allows the decision to be 
made very deliberately. I think people's concern is that this 
is done in kind of a de facto way and those two provisions to 
me just strengthen the process so that, in fact, should a 
council decide to move forward with a limited access program, 
it is done very deliberately with eyes wide open about the 
impacts on the community, both positive and negative.
    Senator Snowe. Thank you.
    Mr. Dunnigan, how does the Administration view these 
national standards?
    Mr. Dunnigan. Senator, the Administration believes it is 
critical that we move forward to establish a uniform set of 
national standards for these dedicated access privilege 
programs. That being said, we recognize that circumstances are 
different when you get from one council area to another and 
that it is important that councils be given some latitude 
within the area of these standards to address the particular 
issues that they have.
    Senator Snowe. So, you would be supportive?
    Mr. Dunnigan. We are supportive of having national 
standards for dedicated access privilege programs, and that is 
part of the Administration bill.
    Senator Snowe. I would like to follow up on what George has 
mentioned about National Standard 8, which has been one of my 
continued concerns because of the inability of the 
Administration and NMFS to evaluate the socioeconomic impacts. 
We saw that, and we are still seeing it, with respect to 
Amendment 13. I do not think NMFS has even undertaken a review 
yet of the impact on the communities. That is why the pending 
reauthorization legislation does include language on assessing 
the cumulative impact on the community, the collective societal 
and economic impact on the community. We cannot ignore or 
separate the impact of the regulations and the burden it 
presents to the community and to the fishing industry.
    So how do you evaluate this? I am hoping that we are going 
to see a changed disposition on this question. I think that the 
legislation will strengthen the requirement for managers to 
consider and to minimize the adverse impact. The U.S. 
Commission on Ocean Policy, Admiral Watkins' report, also 
called for more regard for the impact on communities when the 
regulators are regulating the industry. You cannot separate it. 
There are ways in which to accomplish the same goals, but 
perhaps differently, understanding the harshness of some of the 
regulations that have been imposed and, as we have seen with 
the groundfish industry, that it had to recalibrate on several 
different occasions. That has now resulted in fishermen only 
allowed to fish 52 days a year at sea. That is the harshness.
    So you have heard from me before on this whole issue, but 
we have not seen a change in NMFS on this approach. So can you 
give me your views now?
    Mr. Dunnigan. Yes, Senator, thank you. I think the 
Administration would completely agree that it is absolutely 
critical that managers have that kind of information so that 
they can make the tough choices that they have to, 
understanding both the biological implications, as well as the 
impacts that it has on communities and on the fishing industry.
    Part of the problem is that we have 125 years of investment 
in biological information, and it has really only been in the 
last couple of years that we have been able to step forward, 
with the support of the Congress with funding, to build a 
better basis for us to understand and do the social and the 
economic research that is necessary in order to provide the 
information that the councils have to have.
    So I think the Administration looks at its responsibilities 
under National Standard 8 very seriously. We agree that this is 
an area where we need to find a way to do a better job and 
bringing that information to bear on the problems that the 
councils have to deal with.
    Senator Snowe. George, do you think that this legislation 
satisfies this issue of taking into account the needs of the 
fishing communities?
    Mr. Lapointe. I think it provides the foundation to do 
that. As Jack has just said, this is a relatively new part of 
our fishery management process, and I think we need to 
concentrate some efforts on it, not taking away from the 
biological foundation we have because we need that as well, but 
that, in fact, we need to ramp up the efforts so we gather the 
socioeconomic data and we can look at, in a better way, the 
cumulative impact. There is much we can do now if we take the 
time to do it, but providing a better information foundation 
will allow us to do that better in the future as well.
    Senator Snowe. Admiral Watkins, I know that the Commission 
made recommendations in this area as well. Is there anything 
else that you would recommend as a way to improve it?
    Admiral Watkins. We recognize the issue. There are many 
Federal agencies that undertake socioeconomic research today, 
but it is very sporadic. It is not coordinated. We do not 
analyze the data in a uniform way on a systematic basis. So 
there are things that need to be done. We have made a 
recommendation that is part of the doubling of the research 
budget that we have recommended. And that is not an 
overwhelming number, $650 million today in our basic research 
from all Federal agencies on the ocean. You compare that with 
any other, and it is pitiful. So we say double that budget and 
call for in that process social science and economic research 
to examine the human dimensions and economic value of the 
Nation's oceans and coasts.
    So we say include an operational socioeconomic research and 
assessment program within NOAA, an interagency steering group 
chaired by NOAA to coordinate ocean-related socioeconomic 
research and partnerships with other nongovernmental 
stakeholders to identify and address socioeconomic information 
needs. And this is very consistent with the National Academy of 
Sciences' work in this area.
    So it is an important issue. Social science has not been 
recognized as science, and when we talk about science, we are 
talking about the human dimension as well. And I think that has 
been one of the reasons why we have the litigation process 
going up because we have not considered it.
    Senator Snowe. A good point, an excellent point. I applaud 
the Commission and your leadership in that regard because I do 
think we have to do more to ensure that that is taken into 
account and considered, and for the agencies as well. I agree 
with you. It probably would reduce the amount of litigation if 
we were to take into account all of those issues.
    Do you see any other way, Mr. Dunnigan, on that question?
    Mr. Dunnigan. I do not think so, Senator.
    Senator Snowe. Do you agree with Admiral Watkins and what 
he just said?
    Mr. Dunnigan. I agree with Admiral Watkins relative to the 
need for having to move forward with this.
    The question is always a matter of priority, and the 
country has a lot of those that have to get sorted out. That 
gets done above my pay grade. But there is no question, from 
the standpoint of us carrying out the responsibilities we have, 
that this is an important area that would help greatly.
    Senator Snowe. But in the National Standard 8, though, even 
as it is currently written under law, it is supposed to be 
given equal consideration and it is not. It has been getting a 
much lesser consideration, if at all.
    Yes, Mr. Connaughton.
    Mr. Connaughton. Again, Senator, I have the opportunity, 
because I work on these issues horizontally in other areas--
NEPA actually requires it to begin with, the NEPA statute, as 
well as, again, the overarching regs. Other agencies in other 
resource management settings do this routinely and have erected 
a fairly good infrastructure for doing it. So we actually have 
the capacity to translate that skill set and do it even more 
effectively in the fisheries context. It just has not been done 
as effectively in that context. So there is reason for great 
optimism that this can be done more rapidly and to greater 
effect.
    I would note the reverse of that is humans are part of the 
ecosystem. So even when we talk about ecosystem planning, these 
issues ultimately converge, and that is where we look at these 
tools. When we are selecting from among these market-based 
tools, our understanding of the tool to pick is directly 
relevant to the socioeconomic analysis that occurs if we are 
talking about minimizing disruption and having a smoother 
transition. So if we do not understand the socioeconomic side 
of it with the biological science, we cannot make a sound 
decision about the selection of the tool. So that is why it 
becomes critically important.
    One final point. I just want to go back to Senator Inouye's 
signal to all of us. In a lot of questions is the international 
dimension. We need to more rapidly perfect these mechanisms 
because the U.S. is regarded not just as a leader in the world 
on these issues, but we are one of the world's largest 
consumers. If our U.S. harvest is only providing 15 percent of 
our consumption, well, we are responsible for that other 85 
percent that is going on in the rest of the world that our 
citizens are consuming. So we have to get it even better here 
so that we can create the heightened expectation with those who 
wish to provide food to our citizens, that they do it more 
responsibly and well too, not just for the sake of our own 
economy and health, but for the sake of this very important, 
thriving ecosystem that we all depend on and want to 
increasingly depend on in the future.
    So I do not have answers either, Senator Inouye, but we 
have to heighten the conversation, and I am pleased to let you 
know I have had high-level conversations in the capitals in 
Australia on this point, recently in China, in Japan, and I was 
just in Moscow last week. This was one of the first items that 
we discussed, greater discipline in our international fisheries 
process and, in particular, on this unregulated component. We 
have to have more higher-level conversations about this to 
create the political attention that this issue deserves.
    Senator Snowe. Thank you very much. Thank you, Mr. 
Chairman.
    The Chairman. Admiral, do you want to add to that?
    Admiral Watkins. I just wanted to follow up a little bit, 
Senator, because Senator Inouye brought up a very important 
point. One of the most impressive presentations we had in 
Hawaii was from a long-liner, and he said we have not had a 
bycatch of turtles for a year, and yet, we are precluded from 
fishing south of a certain latitude when the other Asian 
nations that fish in the Pacific are not. That is not fair to 
our fishermen.
    So what I am saying is why do we not accede to the Law of 
the Sea Convention and get our name at the table, the United 
States, and put the pressure on these systems along the line 
that Senator Stevens talked about that he had to do earlier. We 
are not at the table.
    There are claims being made on extensions of the 
continental shelf beyond the 200-mile EEZ now. The Russians 
have just claimed a big claim in the Arctic. Now, it has been 
rejected for the time being, but they were told to go back and 
look at it again to take over half the Arctic. We have got to 
really start getting serious about the international 
ramifications.
    We should be acceding to the Law of the Sea Convention. We 
talked about this at a former hearing with this committee. It 
was brought up, and Senator McCain said we would pass it 95 to 
5 if we could ever get it to the Senate floor. So, I strongly 
urge that this committee to see if we cannot find the political 
leverage to get it to the Senate floor and vote it out and then 
get serious about our international connectivity.
    The Chairman. We have done everything we could to get that 
out. I personally have made pleas that we bring it up, and 
certainly this Committee is, I think, 100 percent behind that. 
In the past, there had been some objections. There were 
modifications to that Law of the Sea agreement that led, I 
think, to really an almost unanimous approval here. But I agree 
with you.
    We are getting close to the time we should close down.
    Admiral we put several things in this bill specifically at 
the Ocean Commission's request. We have your recommendation 
that the scientific and statistical committees provide the 
councils with scientific advice on fishery management and that 
their recommendations for annual catch limits at or below the 
optimal yield acceptable for the biological catch would not be 
exceeded. We placed in this your recommendation that the 
National Marine Fisheries issue national guidelines for 
dedicated access privileges with flexibility for regional 
implementation. And we have followed your suggestions, I 
believe, in terms of the NEPA process.
    Incidentally, few people remember that Senator Jackson had 
one co-sponsor to the National Environmental Policy Act, and 
that was this Senator. I do not think I ever envisioned that we 
would have a separate process for NEPA. We thought it would be 
advice that the official in Government would receive at the 
time of the original decision, and that is where we are going 
in this process here.
    Can you comment? Have we left out anything that is 
important to you? Let us put it that way.
    Admiral Watkins. Well, Senator, as I said in my oral 
statement, there are a number of things that we would do. Our 
Commission said that we should mandate the fisheries management 
council to use the guidance provided by the SSCs. Okay, if you 
do not want to mandate it, then let us do something to 
incentivize their use of this guidance. And if they do not use 
it, we ought to know about it.
    Developing a mechanism for ensuring the qualification and 
impartiality of SSC members. I think that is very important. 
You have SSC members up there that are dedicated to the task, 
they are qualified in Alaska to do the job, and so you listen 
to them. Now, you do not want outsiders coming in. I understand 
that. But still, the qualifications of those people become very 
important so that then we can build the confidence in the 
system. We want to use the SSC data that is based on good 
science, and so we need to look at the process that we follow 
to make sure it is good science.
    Then we said require the councils to establish and initiate 
a periodic scientific peer review process of the information 
used by the SSCs. We think that is just a follow-up mechanism 
so that it does not just languish there and sit there as a hope 
that they might do it and find out many councils are not doing 
it.
    So, again, we have some recommendations in my statement 
here that I think can enhance that, to the extent you can stand 
it up here, to strengthen it even further.
    The Chairman. We think that 22 of your 27 recommendations 
are specifically included in this bill. I think that is a 
pretty good batting average.
    Admiral Watkins. It is excellent. We are all for it. We are 
just saying we think it could be strengthened even further, but 
we certainly think you have made a tremendous step in the right 
direction.
    The Chairman. We would appreciate some detail on the ones 
left out and suggestions as to how those might be modified to 
meet some of the objections of our Members. If you will help 
us, we will work on that.
    I know that, Mr. Connaughton, you have had some suggestions 
also and Jack, we will be pleased to listen to any last-minute 
appeals. We do not intend to mark up this bill until January, 
and we hope to have it on the floor by about February. It is 
just not the kind of bill that we can get out and get into this 
mess that is out there right now. But I appreciate your help 
and I appreciate your coming here.
    Do you have any last comments? Senator Snowe?
    Senator Snowe. No. I just want to thank all the witnesses.
    The Chairman. We do thank you very much.
    I want to place in the record that Margaret Spring, the 
Minority Counsel, has been very much of a resource and a great 
help in developing this bill. I want to start the practice for 
this committee to list at the beginning of any report that is 
filed the staff members who were specifically involved in 
preparing the material that led to bringing the bills before 
the Committee. So that will be done now on this one, and that 
will be our policy so long as we are Co-Chairmen.
    We thank you very much for your help.
    [Whereupon, at 11:40 a.m., the Committee was adjourned.]

                            A P P E N D I X

Prepared Statement of John Sisk; on behalf of Stosh Anderson, Chairman, 
  MSA 2005 Working Group: Working Fishermen Dedicated to Sustainable 
              Fisheries and Prosperous Coastal Communities

    On behalf of the MSA 2005 working group I would like to express our 
thanks to Senate Commerce Committee Co-Chairmen Ted Stevens and Daniel 
Inouye, for the opportunity to submit this written statement for the 
record of this hearing on reauthorization of the Magnuson-Stevens 
Fishery Conservation and Management Act (MSA). We appreciate the Co-
Chairmen's leadership, and the dedicated. hard work of their talented 
Commerce Committee staff. We also extend that appreciation to all of 
the Members of the Senate Commerce Committee, and their staff members, 
who have received our fishermen so openly when they have traveled to 
Washington. I submit this hearing statement today on behalf of group of 
a hard working American fishermen focusing specifically on this 
legislation.
    Our working group, ``MSA 2005,'' is comprised of active commercial 
fishermen and former regional fishery management council members who 
are dedicated to the health of our coastal communities and the 
fisheries they depend on. Participants in the working group hail from 
Alaska, Washington, Oregon, California and the New England states. 
Although our fisheries and our fleets are different, we have identified 
important shared priorities. MSA 2005 is engaged in the reauthorization 
of the Magnuson Stevens Fishery Conservation and Management Act (MSA) 
with one primary goal: keep the fishery access privileges connected to 
the working fishermen, their families, and our coastal communities. 
Keeping fishing privileges tied to the waterfront is an essential 
cornerstone of healthy, prosperous and sustainable communities.
    With this goal clearly in mind, MSA 2005 is participating actively 
in reauthorization of the MSA, our Nation's primary law governing 
fishing in Federal marine waters. Working group members have drawn upon 
their substantial experience in commercial fishing and in fishery 
policy in order to develop recommendations for consideration by Members 
of Congress as they proceed with MSA reauthorization legislation. Our 
primary focus is on provisions related to limited access privileges 
(LAPs) and LAP Programs. We have worked hard to develop specific 
legislative language designed to address our interests, consistent with 
the purpose, spirit and substance of the MSA, and we are ready to work 
with the Committee on legislative details at any time. Today, we 
present the over-arching policy considerations and the approach we 
recommend in order to ensure healthy, prosperous fishing communities.

Policy Considerations
    MSA 2005 seeks to keep fishing access privileges connected to the 
waterfront and to the working fishermen in our coastal communities. 
This entails enhancing access, sustaining participation, providing 
entry level opportunities. and maintaining competitive and open 
markets--all for working community based fishermen defined as vessel 
owner-operators, vessel captains, and vessel crew members. In addition, 
this requires measures to prohibit ``absentee fishing'' whereby persons 
distant from the community might hold fishing privileges from which 
they extract wealth through leasing of quota without ever fishing or 
taking responsibility for the fishing vessel or crew. Absentee fishing 
means wealth is extracted from the fishing fleet and from the coastal 
communities without accountability for conduct of the actual fishing. 
Absentee fishing compromises community, as well as resource health.
    MSA 2005 does not ask that the MSFCMA provide detailed 
prescriptions for these challenges. MSA 2005 does recommend in the 
strongest terms that the MSFCMA should require that councils address 
these crucial issues when they prepare a LAP Program. We maintain that 
Congress should identify public policy priorities the councils must 
address in preparation of LAP Programs. The councils would retain 
flexibility and discretion as to how to address these concerns on a 
fishery by fishery basis.
    Keeping access privileges connected to the waterfront and to the 
working fishermen in our coastal communities should require that 
councils follow a three step process in designing and implementing 
future LAP programs. These steps are:

        A. Establish measurable goals and objectives.

        B. Periodically review and assess the program including the 
        degree to which goals and objectives are being met.

        C. Modify the LAPs and/or the LAP program, based on the 
        assessment, to enhance performance relative to achieving the 
        goals and objectives.

    MSA 2005 refers to this process as the ``ABCs'' of successful LAP 
programs.
    These ``ABCs'' are interdependent. Measurable objectives provide 
the framework for the program. They provide the criteria for 
assessments, and the assessments provide accountability as well as a 
way to incorporate relevant new economic, social or biological 
considerations. Without clear authority to modify the program in 
response to program reviews revealing that adjustments are needed, a 
LAP program would become over time an inflexible artifact and program 
objectives may never be achieved or may be compromised over time. 
Instead of councils addressing shortcomings or new challenges in a 
timely and responsive manner through program modifications, problems 
would spill over to fishermen, communities, the resource itself or 
perhaps back to Congress.
    Because the ABCs of successful LAP programs are interdependent, MSA 
2005 urges that a provision for modification of LAPs and/or LAP 
programs be included in the Program Requirements section of draft 
reauthorization legislation.
    MSA 2005 also recommends the legislation identify several specific 
types of goals or objectives that Councils should be asked to consider 
when they develop LAP programs. Again, it is not our intent to micro-
manage program design and development, but rather to see the statute 
outline the important public policy considerations that must be 
addressed.
    The ABC approach to LAP program development provides significant 
public policy benefits. It bridges the gap between advocates of a hard 
``sunset'' provision that would render LAP programs void after a 
prescribed number of years, and advocates of permanent, unchanging 
fishing ``rights.'' The ABC approach provides a rational way to 
periodically modify LAP programs, based on a sound process, to improve 
program performance. In so doing the ABC approach offers LAP holders 
the substantial value inherent to an access privilege of indefinite 
tenure yet provides councils with tools to ensure that program 
objectives continue to be achieved over time.
    The ABC approach likewise ensures that councils provide LAP holders 
with clearly specified program objectives and conditions for the time 
period between reviews. The opportunity to modify programs and 
allocations may limit the maximum value an LAP would assume, with the 
effect of buffering price escalation such that LAP shares remain 
affordable to new entrants. The result would be LAP programs that 
provide substantial stewardship incentives to LAP holders yet allow 
councils to safeguard entry level opportunities, coastal fishermen and 
their communities, and the public process.
    MSA 2005 recommends specific program requirements to keep access 
privileges tied to the waterfront and to guard against absentee 
ownership. We strongly recommend that holders of limited access 
privileges be directly connected to the actual fishing and that leasing 
be limited to instances of hardship or to address inheritance issues. 
We propose two ways to maintain the connection between access 
privileges and active fishermen.
    First, in some instances an active working fisherman who holds LAPs 
might own more than one boat in the fishery in which they are engaged. 
In other instances a fisherman holding LAPs might fish in one fishery 
and own another boat in a fishery that occurs simultaneously. Another 
LAP holder might fish on their own boat and be part owner of a second 
boat on which a relative fishes. Such fishermen should be able to allow 
LAPs they hold to be fished on one of these other boats, provided they 
have a substantial direct ownership stake in the vessel.
    A second option is for the holder of the LAP to be on board the 
vessel from which their LAPs are being harvested. This LAP ``owner on 
board'' provision has proven successful in the Alaska halibut--
sablefish IFQ program, and it is well suited to many fisheries, or 
segments of fisheries.
    A limitation on leasing and these two measures to empower active 
LAP holders who participate directly in fisheries are designed to 
ensure the long-term connection between access privileges and coastal 
fishing communities. When combined with the ABCs of successful LAP 
programs, the result is a framework that ensures limited access 
privileges remain connected to America's active working fishermen and 
fishing families, and that the wealth of our fisheries sustains our 
coastal communities.
    Two additional, important policy problems and specific 
recommendations are included in our reauthorization recommendations: 
the need for better information on the participation of working 
fishermen in our Nation's fisheries, and the importance of maintaining 
open, free and competitive markets for fishermen to sell their catch.
    Fishing vessel crew member jobs constitute the lion's share of the 
fishery employment opportunities in coastal communities. In Alaska, 
where we have the most experience with fishery rationalization and 
limited access privileges, the implementation of fishing quota programs 
has resulted in substantial layoffs of fishing crew members as fishing 
fleets consolidate, with heavy economic impacts on many fishermen, 
fishing families, and their communities.
    Currently neither the councils nor NOAA Fisheries maintains a 
record of fishermen's participation in Federal fisheries as crew 
members. As a result. reliable information to support the assessment 
and mitigation of economic and social impacts associated with the 
transition to limited access privilege programs is lacking. In 
addition, there is no information base to inform decisions on whether 
to include crew members in the initial allocation of limited access 
privileges.
    MSA 2005 recommends the establishment of annual records or 
registries of fishing crew members on board each vessel, recorded in 
conjunction with fish landing documentation. This will provide a data 
base of fishing crew members and the associated harvest landing 
quantities, by fishery, vessel and season. The resulting information 
will contribute to better fishery management and greater capacity to 
incorporate crucial community economic considerations into the council 
decision-making process.
    Fishermen across the Nation share a common interest in maintaining 
open, free and competitive markets in which fishermen sell their catch. 
This enables fishermen to receive a fair share of the value of the 
resource, and is crucial for the economic well being of fishing 
families and the coastal communities where they reside. MSA 2005 
appreciates the Committee's decision not to include processor quota in 
the draft legislation, and looks forward to working toward fishery 
arrangements that maintain open, competitive markets for fishermen.
    Effective business arrangements among harvesters and processors are 
essential for economic success of a fishery, and those arrangements 
should--must--be voluntary in nature. Neither legislation nor 
management programs should force a fisherman to sell product to a 
specific processor. Similarly, measures that allow excessive 
consolidation in either the harvesting or processing sector should be 
strenuously avoided; competition is the lifeblood of innovation and 
entrepreneurship. Finally, fishery arrangements that risk anti-
competitive outcomes must be rejected.
    In conclusion, we would like to reiterate our appreciation of the 
Committee's work on this important legislation and restate our primary 
goal: Let us keep the fishing privileges connected to the waterfront, 
the working fishermen, their families, and our coastal communities. 
Congress can accomplish this important goal by providing guidelines to 
councils in the MSFCA for the development of LAP programs: establish 
measurable program goals and objectives, conduct regular periodic 
reviews of program performance, and modify programs as necessary in 
response to those reviews in order to optimize program performance and 
achieve program objectives. Additionally, program objectives should 
safeguard against absentee fishing, keep LAPs closely tied to the 
waterfront of active fishermen, and ensure that fishermen have a 
competitive market in which to sell their catch. Finally, Congress 
should direct councils to create a registry for all fishermen who 
participate in our Nation's fisheries.

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
